<html>
<title> - H.R. 2802, COMMEMORATIVE WORK TO HONOR FORMER PRESIDENT JOHN ADAMS; H.R. 2806, ADJUST BOUNDARY OF THE STEPHEN MATHER WILDERNESS AND NORTH CASCADES NATIONAL PARK; AND H.R. 3113, UPPER ELK RIVER WILD AND SCENIC STUDY ACT.</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






 H.R. 2802, COMMEMORATIVE WORK TO HONOR FORMER PRESIDENT JOHN ADAMS; 
H.R. 2806, ADJUST BOUNDARY OF THE STEPHEN MATHER WILDERNESS AND NORTH 
CASCADES NATIONAL PARK; AND H.R. 3113, UPPER ELK RIVER WILD AND SCENIC 
                              STUDY ACT.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 30, 2009

                               __________

                           Serial No. 111-31

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
51-571PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio








                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 30, 2009..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah, Prepared statement of.............................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2

Statement of Witnesses:
    Adams, Benjamin C., President, Adams Memorial Foundation, 
      Inc., New York, New York...................................    18
        Prepared statement on H.R. 2802..........................    19
    England, Doug, Chelan County Commissioner, Wenatchee, 
      Washington.................................................    28
        Prepared statement on H.R. 2806..........................    30
    Holtrop, Joel, Deputy Chief for National Forest Systems, 
      Forest Service, U.S. Department of Agriculture.............     8
        Prepared statement on H.R. 3113..........................     8
    Parlette, Hon. Linda Evans, Washington State Senator, 12th 
      District, Wenatchee, Washington............................    21
        Prepared statement on H.R. 2806..........................    23
    Saffer, Martin V., President, Pocahontas County Commission, 
      Marlinton, West Virginia...................................    31
        Prepared statement on H.R. 3113..........................    33
    Shipley, Thomas A., The Sharp Farm, Slatyfork, West Virginia.    34
        Prepared statement on H.R. 3113..........................    35
    Wenk, Daniel N., Acting Director, National Park Service, U.S. 
      Department of the Interior.................................     5
        Prepared statement on H.R. 2802..........................     5
        Prepared statement on H.R. 2806..........................     6
    Willis, Gil, Elk River Touring Center, Slatyfork, West 
      Virginia...................................................    36
        Prepared statement on H.R. 3113..........................    37

Additional materials supplied:
    Evans, Hon. Daniel J., U.S. Senator 1983-1989, Letter 
      submitted for the record...................................     3


 
 LEGISLATIVE HEARING ON H.R. 2802, TO PROVIDE FOR AN EXTENSION OF THE 
 LEGISLATIVE AUTHORITY OF THE ADAMS MEMORIAL FOUNDATION TO ESTABLISH A 
  COMMEMORATIVE WORK IN HONOR OF FORMER PRESIDENT JOHN ADAMS AND HIS 
LEGACY; H.R. 2806, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO ADJUST 
 THE BOUNDARY OF THE STEPHEN MATHER WILDERNESS AND THE NORTH CASCADES 
NATIONAL PARK IN ORDER TO ALLOW THE REBUILDING OF A ROAD OUTSIDE OF THE 
 FLOODPLAIN WHILE ENSURING THAT THERE IS NO NET LOSS OF ACREAGE TO THE 
  PARK OR THE WILDERNESS; AND H.R. 3113, TO AMEND THE WILD AND SCENIC 
RIVERS ACT TO DESIGNATE A SEGMENT OF THE ELK RIVER IN THE STATE OF WEST 
  VIRGINIA FOR STUDY FOR POTENTIAL ADDITION TO THE NATIONAL WILD AND 
    SCENIC RIVERS SYSTEM. UPPER ELK RIVER WILD AND SCENIC STUDY ACT.

                              ----------                              


                        Thursday, July 30, 2009

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Napolitano, 
Rahall, Duncan, Lummis, Hastings and McMorris Rodgers.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. The Subcommittee on National Parks, Forests 
and Public Lands will come to order. Today we will be 
conducting a hearing on three pieces of legislation: H.R. 2802 
by Congressman Delahunt; H.R. 2806 by the Ranking Member of the 
full Committee, Mr. Hastings; and H.R. 3113 by the Chairman of 
the full Committee, Mr. Rahall.
    To save some time, let me request that all witnesses keep 
your comments to five minutes. Your full written testimony and 
any extraneous material you might want to submit will be 
included in the record. With that, let me turn to the Ranking 
Member, Mr. Bishop, for any opening comments he may have.
    Mr. Bishop. To move this forward, I will waive my opening 
comments.
    Mr. Grijalva. Let me ask the full Committee Chairman. Mr. 
Chairman, any comments?
    Mr. Rahall. No, Mr. Chairman. Thank you for having this 
hearing today.
    Mr. Grijalva. Thank you. Mr. Hastings, any comments 
specific to the legislation that you have before us, sir?

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Yes, Mr. Chairman. Thank you, and let me, 
once again, thank you for your courtesy because, as you know, 
this was scheduled earlier, and you postponed it until this 
date to accommodate so that we could have witnesses here, so I 
thank you for that courtesy, and we do have two witnesses from 
home.
    So I appreciate the opportunity to hear my bill, H.R. 2806, 
which allows for continued public access to the North Cascades 
National Park from the community of Stehekin, Washington.
    I am pleased to welcome State Senator Linda Evans Parlette, 
who will be testifying later. She has long family ties to the 
Stehekin community and has been tireless in her efforts to 
ensure access to the National Park.
    I am also pleased to welcome newly elected Chelan County 
Commissioner Doug England, who also will testify later on, and 
he was elected just last November to the county government.
    For those of you who have not had an opportunity to visit 
Stehekin, the gateway to the North Cascades National Park, this 
community is located at the western end of Lake Chelan, and 
listen to this: It is accessible only by boat, float-tank 
plane, or a multi-day hike. In other words, it is relatively 
isolated.
    From the Town of Stehekin, the Stehekin Valley Road has 
long allowed residents and visitors access to some of the most 
beautiful scenery in the North Cascades. Recognizing this value 
to local residents and tourists, the road was specifically 
protected when the park and wilderness areas were created. The 
Stehekin Road has, for many years, been maintained and run by 
park officials, but following extreme flooding and subsequent 
changes in the course of the river, much of the road now is 
underwater. Because the road occupies a narrow corridor within 
the borders of the Stephen Mather Wilderness Area, 
congressional approval is required to modify the corridor prior 
to the Park Service rebuilding the road.
    During legislative consideration of the park's creation in 
1988, Congress determined that the Stehekin Road would remain 
exempt from the restrictions of other wilderness areas; 
otherwise, no cars, mountain bikes, or other mechanized 
vehicles would have been allowed to transport area residents or 
park visitors to the wilderness areas north of the community of 
Stehekin.
    Former U.S. Senator and Washington State Governor Dan 
Evans, the author of the 1988 Act creating the park, has 
written to emphasize that it was Congress' intent to allow for 
continued road access to the park and, Mr. Chairman, I ask 
unanimous consent that his letter be made part of the record.
    Mr. Grijalva. Without objection.
    [The Evans letter submitted for the record by Mr. Hastings 
follows:]

Daniel J. Evans
5215 North East 45th
Seattle, WA 98105

July 7, 2009

The Honorable Raul M. Grijalva
Chairman
Subcommittee on National Parks, Forests and Public Land
Committee on Natural Resources 1440 Longworth HOB
Washington, DC 20515

Dear Mr. Chairman:

    I am pleased to write in favor of H.R. 2806 sponsored by 
Representative Doc Hastings of the state of Washington. I believe his 
proposal for reconstruction of the Upper Stehekin road is both 
desirable and vital for appropriate access to portions of the North 
Cascade National Park.
    Before speaking on the particulars of the road reconstruction let 
me establish my credentials for testifying on this measure. I served as 
United States Senator for the state of Washington from 1983 to 1989. 
During that time I served as a member of the Energy and Natural 
Resources Committee ofthe Senate, which has jurisdiction over our 
National Park system. While on the committee I initiated and became 
prime sponsor of a bill to create wilderness areas within the three 
national parks of Washington state, Olympic, Rainier, and North 
Cascades. It was my intent to ensure that unpue development would not 
occur within those national parks. I also recognized that access to 
trails and vistas within those parks was vital and carefully excluded 
those road rights-of-way from wilderness boundaries. Normally, road 
reconstruction and minor relocation would be accommodated within these 
100 foot right of ways but on rare occasions natural catastrophes could 
require modification of wilderness boundaries to allow road 
relocations.
    For almost 70 years I have hiked and climbed in the National Parks 
of Washington state and have a strong and continuing desire to maintain 
their integrity. I am very familiar with the area in question and have 
ridden the road from Stehekin to trailheads where I have embarked on 
extensive hiking and climbing trips. If this road is not rebuilt, 
access to extraordinary wilderness experiences will be substantially 
more difficult. Almost a full days hike will be necessary to reach what 
once were trailheads giving mountain access.
    I believe very strongly that continued protection of our wilderness 
National Parks depends on the active support of visitors, hikers, and 
climbers who act as champions for our National Parks. If we make access 
substantially more difficult we reduce the number of visitors and 
ultimately the numbers of citizens and taxpayers who know enough about 
these parks to want to protect them.
    It was my intent when I sponsored the Park Wilderness Bill of 1988 
to protect the unique features of these splendid Parks but not to make 
access more difficult for those seeking the unusual experience of a 
wilderness Park. I believe that in this instance an alternative route 
along the Old Wagon Road would maintain the appropriate access and that 
portions of the current road could revert to wilderness category with 
no net loss of wilderness area. I strongly urge the passage of H.R. 
2806 and believe it is compatible with the original bill I sponsored in 
1988.
    I thank you for your attention to this matter and hope that it can 
be resolved promptly and successfully.

Sincerely

Daniel J. Evans
U.S. Senator 1983-1989
                                 ______
                                 
    Mr. Hastings. Failure to fix the road will keep many 
visitors from entering the park and will reduce the number of 
visitors to the region and to this tourism-dependent community.
    My bill would authorize the National Park Service to adjust 
the wilderness boundary for the sole purpose of rebuilding the 
closed section of the roadway from the Stehekin River, provided 
that there is no net loss of wilderness acreage. All Federal 
environmental laws, including the National Environmental Policy 
Act and the Endangered Species Act, would have to be complied 
with for the road to be moved.
    Now, at this point, Mr. Chairman, I would like to point out 
what we are going to hear, as far as testimony, from other 
witnesses.
    Three weeks ago, this Committee approved a bill, H.R. 1061, 
that was authored by my good friend from Washington, Mr. Dicks, 
which gave away 36 acres of the Olympic National Park, without 
compensation, for the purpose of building a road.
    In a July 9th letter to Mr. Bishop, the Ranking Member of 
this Subcommittee, Mr. Wenk and the Park Service endorsed the 
road and land giveaway in H.R. 1061, so they endorsed the 
giveaway of this land just three weeks ago, but, today, the 
Park Service opposes a road that will result in no net loss of 
wilderness area for the residents of Stehekin.
    So I look forward to hearing an explanation from Mr. Wenk 
on this obvious double standard.
    I also understand that the Park Service will oppose this 
bill, citing ``higher priorities.'' If keeping our nation's 
promises to local residents affected by Federal policies is not 
a high priority, and if ensuring the public's access to their 
National Parks and other Federal lands is not a high priority, 
then I would like to know what the priorities are of the 
National Park Service.
    Once again, Mr. Chairman, I am pleased that the 
Subcommittee will have this opportunity to hear from the two 
representatives from home, Senator Parlette and Commissioner 
England, on the importance of these issues to this local 
community and to all visitors that visit the wilderness areas 
in the northern part of Washington.
    With that, thank you again for your courtesy, and I yield 
back my time.
    Mr. Grijalva. As I invite the first panel to come forward, 
let me extend the courtesy to any Member that has an opening 
comment on any of the legislation.
    Mr. Bishop. Mr. Chairman?
    Mr. Grijalva. Yes.
    Mr. Bishop. Could I ask unanimous consent to have the 
statement on H.R. 2806 added into the record?
    Mr. Grijalva. Without objection.
    [The prepared statement of Mr. Bishop follows:]

  Statement of The Honorable Rob Bishop, a Representative in Congress 
                         from the State of Utah

    To ensure that a wilderness designation would not block public 
access to historic recreations sites, the 1988 law that established the 
Stephen Mather Wilderness areas in the North Cascades National Park 
provided for a 100 foot-wide non-wilderness corridor to -the upper 
Stehekin Valley.
    Unfortunately, in 1995 the naturally meandering Stehekin River 
washed away parts of the road and it remains impassable today.
    Doc Hastings's bill, H.R. 2806, restores the intent of Congress by 
allowing relocation of the road to a less flood prone site.
    This bill does not reduce the amount of wilderness in the park. It 
is strongly supported by local officials and by former Senator Dan 
Evans who sponsored the 1988 law. When the National Park Service 
solicited public comments on alternatives for management of the area, 
over 90% of the comments favored keeping the road open.
    I want to thank the witnesses for travelling across the country to 
testify and I 109k forward to hearing what have to say.
                                 ______
                                 
    Mr. Grijalva.Thank you very much, gentlemen. Let me begin 
with Mr. Daniel Wenk, Acting Director, National Park Service, 
who will speak to H.R. 2802 and H.R. 2806. Sir?

   STATEMENT OF DANIEL WENK, ACTING DIRECTOR, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Mr. Chairman, for the opportunity to 
appear before this Subcommittee to present the Department of 
the Interior's views on two of the bills on today's agenda. I 
would like to submit our full statements for each of these 
subjects for the record and summarize the Department's 
positions on these bills.
    H.R. 2802 would amend Public Law 107-62 to extend by seven 
years the authorization for establishing a memorial in the 
District of Columbia or its environs to honor President John 
Adams and his legacy. The Department supports and extension of 
the authority to construct a memorial to President John Adams 
but recommends that the bill be amended to extend the authority 
for a period of four years in order to create a greater sense 
of urgency on the part of the memorial sponsors.
    Based upon the foundation's relatively slow progress to 
date, even with the additional year afforded them to the 
approval of the Area One designation by Public Law 107-62, we 
are reluctant to extend the authority for a full seven 
additional years.
    H.R. 2806 would authorize the Secretary of the Interior to 
adjust the boundary of the Stephen P. Mather Wilderness within 
the North Cascades National Park complex to allow the 
rebuilding of a road outside of the floodplain.
    The Department opposes enactment of H.R. 2806 because of 
our concerns about potential impacts to the park's natural 
resources, inconsistency with the intention of the Wilderness 
Act, and our position of not rebuilding roads in parks after 
natural disasters where no visitor facilities are found along 
or at the end of the road.
    In addition, with limited financial resources, the 
planning, design, construction, and maintenance of a new road 
are a lower priority than other needs of the National Park 
Service.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions you may have.
    [The prepared statements of Mr. Wenk on H.R. 2802 and H.R. 
2806 follow:]

 Statement of Daniel N. Wenk, Acting Director, National Park Service, 
             U.S. Department of the Interior, on H.R. 2802

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 2802, a bill to provide for an extension of 
the legislative authority of the Adams Memorial Foundation to establish 
a commemorative work in honor of former President John Adams and his 
legacy.
    While the Department supports an extension of the authority to 
construct a memorial to President John Adams, we recommend that H.R. 
2802 be amended as discussed later in this statement.
    H.R. 2802 would amend Public Law 107-62 to extend by seven years 
the authorization for establishing a memorial in the District of 
Columbia or its environs to honor President John Adams and his Legacy. 
In addition to providing an extension of authority, H.R. 2802 also 
contains technical amendments to the original authorizing legislation, 
Public Law 107-62, enacted in 2001, which contains outdated references 
to the Commemorative Works Act (CWA). The references currently cited in 
Public Law 107-62 refer to the CWA as codified under 40 U.S.C. 1001 et 
seq. The CWA, however, was recodified under 40 U.S.C. 8901 et. seq. on 
August 21, 2002 (Public Law 107-217). The proposed amendments in H.R. 
2802 would update and correct the references to the CWA.
    The authority to establish the John Adams memorial was originally 
approved by Congress on November 5, 2001. The Adams Memorial Foundation 
(Foundation) requested that the subject of the commemoration be 
determined to be of preeminent and lasting significance to the Nation 
so that the proposed memorial could be placed in Area I, a request that 
was considered favorably by the National Capital Memorial Advisory 
Commission in 2002 and recommended to Congress. P.L. 107-62, enacted on 
December 2, 2002, granted the Foundation that additional authority to 
seek a site for their memorial within Area I. Authorizations under the 
CWA have a seven-year sunset period which extends from the date on 
which the Area I authority was granted to allow for time to obtain a 
building permit and begin construction of a memorial. As the Foundation 
has not yet been able to select a site, design the memorial, receive 
the requisite approvals, or raise sufficient funds for the construction 
of the memorial, a permit could not be granted. Therefore, the 
authority to establish a memorial to President John Adams will expire 
on December 2, 2009.
    Congress appropriated $1,000,000 to the National Park Service in 
2002 for planning and design of the memorial in cooperation with the 
non-Federal partnering Adams Memorial Foundation. Of that amount, 
$479,811 remains available. The Foundation has spent an extensive 
amount of time in organizing a board during the past seven years but 
has not yet concluded the first major step of the process which is 
evaluating sites for the memorial.
    Based upon the Foundation's relatively slow progress to date, even 
with the additional year afforded them through the approval of Area I 
designation by P.L. 107-62, we are reluctant to extend authority for a 
full seven additional years. Rather, the Department recommends that 
H.R. 2802 be amended to extend the authority for a period of four years 
in order to create a greater sense of urgency on the part of the 
memorial sponsors. The Department has generally supported 
congressionally proposed extensions to memorial sponsors for periods of 
two to three years in the past.
    With an additional four years of legislative authority, the 
Foundation should be in a viable position to achieve site and design 
approvals as well as to raise the minimum 75 percent of the funds 
sufficient to build the memorial. Should they meet these thresholds, 
the Secretary of the Interior may exercise his authority under the CWA 
to grant an additional three-year administrative extension to allow the 
Foundation to finalize construction documents and raise the balance of 
necessary funding.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members may have.
                                 ______
                                 

 Statement of Daniel N. Wenk, Acting Director, National Park Service, 
             U.S. Department of the Interior, on H.R. 2806

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to offer testimony on H.R. 2806, 
a bill authorizing the Secretary of the Interior to adjust the boundary 
of the Stephen Mather Wilderness and North Cascades National Park in 
order to allow the rebuilding of a road outside of the floodplain while 
ensuring that there is no net loss of acreage to the park and 
wilderness, and for other purposes.
    The Department opposes H.R. 2806, because of our concerns about 
potential impacts to the environment, inconsistency with the intention 
of the Wilderness Act, and our position of not rebuilding roads in 
parks in the Cascades after natural disasters where no visitor 
facilities are found along or at the end of the road. In addition, with 
limited financial resources, the planning, design, construction and 
maintenance of a new road are lower in priority than other needs of the 
National Park Service (NPS).
    Stehekin, Washington is a small community within the Lake Chelan 
National Recreation Area, which is part of the North Cascades National 
Park Complex. The Stehekin Valley is only accessible by boat, float 
plane or hiking. Visitors arrive to Stehekin by means of one of these 
conveyances and do not typically bring cars. Cars generally are limited 
to those who live in or own property in Stehekin. There are 
approximately 85-95 year-round residents and about one-third are NPS 
employees or their dependents.
    The Stehekin Valley Road had run from the Stehekin Landing, the 
location of the ferry and public docks, twenty-three miles north and 
had ended at Cottonwood Camp in North Cascades National Park. The first 
eleven miles traveled through the Lake Chelan NRA, and in addition to 
providing access to NPS trailheads, campgrounds and administrative 
facilities, also provided access to private property and businesses. 
However, the next twelve miles traveled through North Cascades National 
Park and only accessed NPS trails and campgrounds and were maintained 
at a more primitive level. No private property was accessed by this 
road. In addition, this section of road was in a narrow corridor 
between the Stephen Mather Wilderness. The majority of visitors to the 
Upper Stehekin Valley used an NPS shuttle. The average ridership of the 
shuttle to the Upper Valley was 2,500 people per year. In addition, the 
NPS estimates that an additional 500 to 800 individuals would use 
private vehicles to drive the road to the Upper Valley, for an 
estimated total visitation of approximately 3,000 to 3,300 people per 
year.
    The Washington Park Wilderness Act of 1998 designated the Stephen 
Mather Wilderness within the North Cascades National Park Complex as 
part of the National Wilderness Preservation System. The Upper Stehekin 
Valley Road, identified as a narrow corridor, fifty feet to each side 
of the center line of the Upper Stehekin Valley Road, was excluded from 
the boundary of this wilderness area.
    In 1995, the first of several major floods occurred in the Stehekin 
Valley, with many sections of the entire Stehekin Valley Road being 
damaged or destroyed. While much of the road was repaired or rebuilt, 
the damage to the last 2 1/2 miles of the Upper Stehekin Valley Road 
was too great and a new terminus was established. In 2003, another 
flood destroyed substantial portions of the entire Stehekin Valley 
Road. Over $1 million was spent to repair or rebuild the Lower Stehekin 
Valley Road to keep it open to the park boundary and to access private 
property. This road remains open today.
    The Upper Stehekin Road was obliterated at Mile 12.9, a place known 
as Car Wash Falls, and substantial portions of the road were damaged or 
destroyed further up the valley, leaving the remaining eight miles of 
road unusable to vehicles. The NPS undertook an extensive public review 
process to analyze alternatives for continuing the public access to the 
Upper Stehekin Valley. Those alternatives included rebuilding the road 
within the existing 100-foot non-wilderness corridor, relocating the 
road through a wilderness area on the present alignment of the Pacific 
Crest National Scenic Trail, or taking no action on the road and 
relying on the existing trails to provide access to the upper valley.
    The analysis found that rebuilding the road along the existing 
corridor was an infeasible and unsustainable option given the impacts 
to the Stehekin River and other natural resources, the difficulty of 
crossing at least one large continually rapidly eroding slope, and the 
likelihood the road would again be destroyed by flooding or slope 
failure in the near future. The analysis also found that relocating and 
constructing the road in the Stephen Mather Wilderness could have 
significant impacts on active Northern Spotted Owl habitat, old-growth 
forests and wetlands. In addition, road construction is prohibited 
within wilderness areas. Both the rebuilding and the relocation 
alternatives also raised concerns about obtaining the funding needed to 
maintain the road in such a demanding environment. As a result of these 
findings, the NPS made the decision to formally close the road and rely 
on access by trail to the Upper Stehekin Valley.
    If H.R. 2806 passes, the NPS would be required to complete an EIS 
for the wilderness boundary change and the road construction. This 
process would take between three and five years and cost more than 
$500,000. Funding would be needed to construct the road reroute and the 
estimated cost in 2004 dollars was $1.3 million. Additional funds would 
be needed to restore the remaining road bed to service, since it has 
been maintained as a trail for the last five years. No estimate exists 
for this work.
    We remain concerned about maintaining access along the road in the 
Lower Stehekin Valley. Over the last fifteen years, sections of the 
road in the Lower Stehekin Valley have been damaged and destroyed by 
repeated floods and several emergency reroutes have had to be 
constructed. Maintaining this road access is a priority for the NPS and 
as a result we are in the process of doing an EIS to evaluate 
alternative solutions, which according to the Federal Highway 
Administration, range in cost from $6 million to almost $9 million.
    We know our decision involving the Upper Stehekin Valley Road is 
controversial to those that have fond memories of visiting the Upper 
Valley. We want people to visit the park and Stehekin. To this end we 
have worked with a local business to provide stock-supported tent-to-
tent camping in the Upper Stehekin Valley. This allows those who cannot 
or choose not to carry a backpack to camp in the Upper Valley. We have 
completed over $1.2 million worth of repairs from storm damage to roads 
and trails in the Stehekin Valley and have made over $2.5 million in 
improvements to the concession in Stehekin, which is also operated by 
local residents. We are evaluating alternatives that would result in an 
additional $6 million to $9 million to create a sustainable road in the 
Lower Stehekin Valley. And we will continue to make other improvements 
to visitor facilities to ensure people are welcome to the park and the 
Stehekin Valley.
    Mr. Chairman, thank you for your time and this concludes my 
testimony. I will be pleased to answer questions.
                                 ______
                                 

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
    SYSTEMS, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman, Members of the Subcommittee, 
thank you for the opportunity to appear before you today on the 
Upper Elk River Wild and Scenic River Study.
    H.R. 3113 amends the National Wild and Scenic Rivers Act to 
study the suitability of the Upper Elk River in West Virginia 
for an addition to the Wild and Scenic River System. The bill 
provides that the study determine if the river is qualified for 
designation and, if so determined, evaluate the potential 
benefits and consequences of its designation.
    Of the land contained within a quarter mile of each side of 
the river segment, two-thirds is in Federal ownership. This 
section of the Elk River flows through a small canyon with a 
parallel, nonoperational railroad, the only sign of human 
activity. The overall appearance of the river corridor from the 
stream is one of hardwood forests and large boulders with 
occasional views of the railroad. The stream is popular with 
anglers and supports populations of brown and rainbow trout, 
along with brook trout in the tributaries.
    The Department supports this legislation, as it provides an 
opportunity to work with interested parties, including state 
and local governments and landowners, to identify river values 
and how these values should be protected. The study would also 
provide the public with an opportunity to look at landscape 
conservation across all ownerships and government jurisdictions 
with a holistic management approach.
    This concludes my prepared statement, and I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]

 Statement of Joel Holtrop, Deputy Chief for National Forest Systems, 
      Forest Service, U.S. Department of Agriculture, on H.R. 3113

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on 
H.R. 3113.
    This bill amends section 5(a) of the Wild and Scenic Rivers Act, 
Public Law 90-542 (16 U.S.C. 1271--1287) to designate a segment of Elk 
River in Pocahontas County, West Virginia, for study as a potential 
addition to the National Wild and Scenic Rivers System. The segment 
that would be authorized for study lies entirely within the Monongahela 
National Forest, and is an approximate five-mile segment of the Elk 
River from the confluence of the Old Field Fork and the Big Spring Fork 
in Pocahontas County to the Pocahontas and Randolph County line.
    The bill provides that the study determine if the river is 
qualified for designation and, if so determined, evaluate the potential 
benefits and consequences of its designation, including an assessment 
of whether its addition to the National Wild and Scenic Rivers System 
is the best method to protect river values.
    This section of the Elk River flows through a small canyon with a 
parallel, non-operational railroad the only sign of human activity. The 
overall appearance of the river corridor from the stream is one of 
hardwood forests and large boulders with occasional views of the 
railroad. The river is dominated by many pools, separated by stretches 
of riffles. The stream is popular with anglers and supports populations 
of wild brown and rainbow trout; populations of native brook trout 
occur in the tributaries within one-quarter mile of the main channel. 
Karst limestone outcrops along the river bed create the conditions that 
cause the river to ``sink'', or go underground, during low flows.
    Of the land contained within a quarter mile of each side of the 
river segment, two-thirds is in federal ownership, with the remaining 
acreage in private ownership for a total of approximately 1500 acres. 
The bill provides that the study address both Federal and non-Federal 
lands.
    The Department supports this legislation as it provides an 
opportunity to work with interested parties including state and local 
governments and landowners to identify river values and thoughtfully 
evaluate whether and, if desirable, how these values should be 
protected.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Mr. Wenk, let me use the 
opportunity here to ask you some questions.
    First, on the issue of buffer zones that my good friend, 
Mr. Bishop, brought up at our markup, the assumption of the 
fact--that is why I am asking you the question--that the 
National Park Service can establish, and seeks to establish, a 
buffer zone outside the boundary of park units and then, with 
that, having the ability to exert control over land use 
decisions in that buffer zone.
    The suggestion is that we need at least language in every 
piece of legislation prohibiting a buffer zone, and that should 
be a standard. Just for the record, to your knowledge, does the 
National Park Service have the legal authority to control land 
use on land outside the boundaries of a National Park?
    Mr. Wenk. Mr. Chairman, we have no legal authority, except 
as provided by law, outside of a park boundary.
    Mr. Grijalva. And the point about seeking to establish a 
buffer zone outside these parks.
    Mr. Wenk. I am not aware of anyplace where the National 
Park Service is seeking to establish a buffer zone around a 
National Park.
    Mr. Grijalva. And here is the other part of it: Do NPS 
employees have the right, or perhaps even the duty, to develop 
opinions regarding land uses that might impact park resources, 
number one; and, two, do those employees have the right, or 
even the duty, to express those opinions publicly and work as 
neighboring land managers to prevent an activity that might be 
harmful to that resource?
    Mr. Wenk. Mr. Chairman, the Organic Act of the National 
Park Service holds us responsible to ensure that the resources 
of our National Parks are protected unimpaired. When a manager 
of a National Park unit, whether as part of a cooperating 
agency with another Federal agency or working with state 
organizations that may adjoin National Park areas, or working 
with local communities, I believe we absolutely have a 
responsibility, as part of the public, or as a cooperating 
agency, to comment on any activities outside of park boundaries 
that may affect the resources of a National Park area.
    We do that as part of public process, we do that as an 
adjacent landowner, and we do it in a very transparent and open 
manner.
    Mr. Grijalva. OK. Thank you. If Congress were to pass a 
law, or part of any legislation, prohibiting buffer zones, how 
would you interpret that prohibition, number one, the 
Department; and would that prohibition prevent, my last part of 
the question, an employee from expressing their professional 
opinions regarding outside activities outside the park 
boundaries, and what impact would that have on resources at 
all?
    Mr. Wenk. To answer your last question first, I do not know 
the impact on resources because these are looked at on an 
individual basis as proposals for development may occur outside 
of park boundaries. If there was a prohibition on establishing 
buffer zones, I think that would have little impact because we 
are not pursuing established buffer zones.
    I would say that a buffer zone would seem to me to still 
have the same requirement, if one was created by some act or 
some other purpose. If there was a prohibition against buffer 
zones, I think the responsibility of the National Park Service 
and its employees to review and look at development outside of 
National Park areas to see if that development has potential 
impacts, or may cause impairment, to park resources is still 
inherent in our mission, and we would, I believe, have a 
responsibility to comment on development that would impair park 
resources outside of park boundaries.
    Mr. Grijalva. So, short of a gag rule, the opinion would 
continue to be expressed.
    Mr. Wenk. I believe we have an absolute responsibility, 
under their Organic Act, to protect park resources from 
impairment, and as part of any public process, we would desire 
to express that opinion and view that would be considered in 
the public process.
    Mr. Grijalva. Thank you. Mr. Bishop?
    Mr. Bishop. Thank you. Mr. Wenk, I will give you one guess 
on what I am going to ask you.
    Mr. Wenk. Do you want me to guess?
    Mr. Bishop. Sure.
    Mr. Wenk. I was going to guess that you were going to ask 
when your latest request will be responded to.
    Mr. Bishop. A little bit more than that this time, Mr. 
Wenk. I appreciate the last few times we have talked, as well 
as your phone call. I do appreciate you calling me back that 
day.
    I am asking specifically--write this down, and we will give 
it to you in writing--for all public lands-related threat 
assessments for Fiscal Years 2003 through 2005 developed by the 
Department, a complete accounting for how the Department is 
planning to use, or has used, the $50 million it received from 
the January 15th memorandum of agreement with the Department of 
Homeland Security.
    I will give this to you. All memoranda of understanding 
between the Department and DHS from 2006 to the present also 
included all environmental assessments associated with these 
memoranda of understanding; a list of the mitigation funds 
transferred from DHS to DOI from 2006 to the present; and all 
communications and materials, such as notes, e-mails, or 
appointments related to the placement of DHS equipment and 
infrastructure on Department lands from 2006 to the present 
between the superintendent of Big Bend National Park and the 
superintendent of Oregon Pipe National Monument and their 
respective regional directors; and also all documents and 
communications related to issues of DHS access onto Department 
lands from 2006 to the present between the superintendent of 
Big Bend National Park and the superintendent of Oregon Pipe 
National Monument and their respective regional directors.
    Those are the essential elements that we need to know to 
move forward. I appreciate that. I recognize--I had a birthday 
a few weeks ago, I know your office would have sent a birthday 
greeting, but it was held up by OMB.
    Let me do a couple of other questions I simply have. First 
of all, specifically to the Hastings bill, has the National 
Park Service conducted any inventory of public comments dealing 
with the management of this particular area?
    Mr. Wenk. Mr. Bishop, I guess I cannot tell you the 
specific timeframe, but I believe that the decision not to 
reopen this was part of a plan. I will have to find that out 
specifically for you. I am sorry. I do not know the specifics.
    Mr. Bishop. The information I have received is that public 
comments were taken, and I think I will allow Mr. Hastings to 
refresh me or correct me, and over 90 percent of the public 
comments were not in favor of keeping this road open.
    Do you happen to know who built the original road that was 
washed out?
    Mr. Wenk. I do not know who constructed it.
    Mr. Bishop. Did the pioneers who went to that area, being 
smarter than the CCC during the New Deal era who built the road 
that was washed out, did they have an alternative route in that 
particular area that was replaced by the CCC when they rebuilt 
that stupid road that was washed out?
    Mr. Wenk. Mr. Bishop, I cannot answer that question 
specifically.
    Mr. Bishop. I will allow Mr. Hastings to correct me if I am 
wrong, but I understand that there was a pioneer path that was 
the road before the CCC rebuilt the road in the wrong place and 
that his proposal is to take the original pioneer route to 
replace that particular road.
    Will there be a loss of wilderness area if you do what the 
pioneers did and make the route to allow access into this area 
in the place it was originally designed?
    Mr. Wenk. Not according to the bill, as introduced. There 
would be no net loss.
    Mr. Bishop. I appreciate that, and I would assume that you 
would say that if a road was grandfathered in by an act of 
Congress, that was the intent of Congress to do so.
    Mr. Wenk. Yes.
    Mr. Bishop. I like that. Did Superintendent Steve Martin 
represent establishing a buffer zone around the Grand Canyon 
National Park at any point during this year?
    Mr. Wenk. Not to my knowledge.
    Mr. Bishop. Then we will refresh you on that one, too, at a 
later date as well.
    What is the policy toward viewsheds and viewscapes?
    Mr. Wenk. The policy is that if there is a development 
outside of a National Park Service area that would affect the 
viewshed or viewscape from within the National Park area, we 
would consult with the individual, or if it is before a 
planning commission, with a community, with a state, or with 
another Federal agency to assess the impact of that development 
and ask for their consideration.
    Mr. Bishop. In the terminology of Washington, do you 
consider that different than a buffer zone?
    Mr. Wenk. I consider it vastly different from a buffer 
zone.
    Mr. Bishop. That may be one of the terminology differences 
we have.
    The Chairman from Arizona suggested that maybe a gag order 
could potentially be used, and I would suggest, Secretary Gates 
and the Department of Defense has established that kind of 
precedent for you. You might consider what he did as what you 
can do as well.
    With that, Mr. Wenk, I will present once again the 
questions that I had and would ask you once again also to 
review the road concept because what you are trying to do, what 
Representative Hastings and the people in Washington are trying 
to do, is reestablish the road the pioneers had instead of the 
road that the New Deal era created and put it back there so 
access is available to all citizens, and that is a worthy 
cause.
    As to the other two bills, I like them.
    Mr. Grijalva. On that note, Chairman Rahall.
    Mr. Bishop. Do I yield back?
    Mr. Rahall. I propose to put a gag order on the gentleman 
from Utah.
    [Laughter.]
    Mr. Rahall. And remind me the next time your birthday comes 
up. I will send you a birthday card.
    [Laughter.]
    Mr. Bishop. By a vote of three-to-five, but yes.
    Mr. Rahall. I have no questions, Mr. Chairman, except to 
thank, of course, the Forest Service for supporting our study 
on the Elk River. I appreciate it, and I also appreciate the 
work that both of you gentlemen do in the Department of the 
Interior. You are responsible stewards of our public lands, and 
you do a very valuable public service for our people. We thank 
you.
    Mr. Wenk. Thank you.
    Mr. Grijalva. Mr. Hastings, please. Thank you.
    Mr. Hastings. Thank you, Mr. Chairman.
    Mr. Wenk, why did, three weeks ago, you sent a letter to 
Mr. Bishop saying that you are in favor of a land exchange, not 
even a land exchange, just giving up 36 acres of land where the 
reason why that happened is because Mother Nature, i.e., a 
river, washed out the road, and then you are opposed to this 
one where Mother Nature has washed out a road, and there's no 
net losses, Mr. Bishop just asked you?
    Mr. Wenk. The proposed conveyance, Mr. Hastings, to the Hoh 
Tribe involved, we believe, a different set of circumstances. 
We would support the legislation to convey that 37 acres to the 
Hoh Tribe to help them address their life-health-safety 
concerns arising from the current----
    Mr. Hastings. OK. Let me hear, so you are doing this 
because you are worried about the people and, in this specific 
case, the whole tribe. I supported that bill. I thought it was 
good.
    Mr. Wenk. Thank you.
    Mr. Hastings. What about the citizens of Stehekin, who 
depend on tourism and trade and getting people to go up in the 
North Cascade Wilderness Areas, and they have to get up there 
by going through this road? Aren't the reasons that you just 
suggested exactly the same for the citizens that live in 
Stehekin?
    Mr. Wenk. The access is the same issue in both cases, yes, 
Mr. Hastings. The difference, I would tell you, is the fact 
that we would still be providing access, however, not motorized 
or mechanized access on that section of the road.
    Mr. Hastings. If the intent, however, as Senator Evans 
said, and he was the author of the bill, was to allow as much 
access to these areas, including motorized, because that was 
the way it was at the time the bill passed, what has changed 
other than Mother Nature washing out the road? The intention 
was exactly the same: access to wilderness areas.
    Mr. Wenk. The changes, that Mother Nature has washed out 
the road, the difficulty of keeping the road built----
    Mr. Hastings. OK. What was the intent of Congress, though?
    Mr. Wenk. I believe the intent of Congress was to provide 
automobile access on that road.
    Mr. Hastings. OK. So under what authority, then, has your 
position changed?
    Mr. Wenk. We are providing testimony with our opinion. If 
Congress chooses to pass this bill, we will, in fact, do----
    Mr. Hastings. In other words, you do not have an opinion, 
based on statutory law or based on the intent of Congress.
    Mr. Wenk. Mr. Hastings, our intent is to follow the intent 
of Congress whenever we can.
    Mr. Hastings. In that case, then you should be supporting 
the bill, pretty simple.
    You have a phrase in here on why you oppose H.R. 2806, and 
I would like you to elaborate on that. It is in your second 
paragraph, and it says: ``I oppose H.R. 2806,'' and you have a 
few other reasons, then it says, ``and our position of not 
rebuilding roads in parks in the Cascades after natural 
disasters where no visitor facilities are found along or at the 
end of the road.''
    So that policy is specifically for the Cascades. Is that 
correct?
    Mr. Wenk. Mr. Hastings, I saw that. When I reviewed the 
testimony again yesterday, I saw that statement. I believe it 
to say ``in Cascades'' was an inappropriate and incorrect 
statement.
    Mr. Hastings. OK. Let us take the Cascades out. Tell us 
where the other authority comes from where it is because there 
are not any facilities beyond or on the road. Where does that 
come from?
    Mr. Wenk. That would be not an authority; it would be a 
policy of the National Park Service.
    Mr. Hastings. Where is that policy found? Where is it 
written down?
    Mr. Wenk. I would have to get to the specific cite.
    Mr. Hastings. It would seem to me that, OK, if somebody 
writes this statement, and they inadvertently put in 
``Cascades,'' then you at least know where the original 
statement comes from. Now you are telling me that you do not 
know exactly where that policy comes from.
    Mr. Wenk. Mr. Hastings, I would say it comes from the 
National Park Service management policies. The specific cite, I 
would have to get you.
    Mr. Hastings. When could you get that for us?
    Mr. Wenk. I will get it to you by the end of this week.
    Mr. Hastings. OK. I appreciate that. Mr. Bishop advised me 
that he would like to have his by the end of the week, too. 
That would satisfy both of us. So we would look forward to that 
as we go on our August district work period.
    OK, Mr. Wenk. I have to say I am not satisfied with the 
distinction that you are saying between what happened three 
weeks ago and now because the arguments that you used were the 
same. You acknowledged that the intention of Congress, when 
they passed the North Cascade Wilderness, was to have access, 
however it was. So I am disappointed that your agency has taken 
this position. Thank you for being here.
    Mr. Wenk. Mr. Hastings, I appreciate your comment and 
understand your comment.
    There is one other distinction just to bring to your 
attention, and that is that the Olympic National Park Area, I 
am told, is not an area that was wilderness designation.
    Mr. Hastings. No, but the point is, you are administered by 
the Park Service in both cases. By the way, the distinction is 
access to a wilderness area in this case.
    Mr. Wenk. OK.
    Mr. Hastings. Thank you.
    Mr. Grijalva. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chair.
    For Mr. Wenk, did the Park Service conclude that the new 
area of the new road would protect from any future and 
destruction? Has there been an assessment, and what is the road 
plan to prevent any flooding from damaging the road?
    Mr. Wenk. The environmental work has not yet been done on 
the new section, as it would be allowed by the bill. The 
environmental assessments would need to be done, as well as 
specific designs would need to be done, if this is enacted.
    Mrs. Napolitano. Now, this is a road that is only utilized 
by vehicles, by foot traffic, by visitors.
    Mr. Wenk. Currently, because it has been washed out and not 
rebuilt, it is only by nonmechanized travel. It could be horse. 
It could be foot traffic. If rebuilt, it would be open to 
vehicle traffic as well.
    Mrs. Napolitano. Now, the flooding; how often does that 
occur? Is it only seasonal?
    Mr. Wenk. How often it occurs? There were significant 
floods that closed the first portion in 1995, and that closed 
the last three miles of the trail. In the past few years, we 
have had flooding up to the area of Car Wash Falls that have 
actually closed about 12 miles of the road. It is a seasonal, 
periodic basis just based on the weather and the snowfall, et 
cetera, at any given time. It is unpredictable.
    Mrs. Napolitano. So knowing that, the assessment would then 
provide you with information to build some kind of protection 
for that future road.
    Mr. Wenk. I think the intent is to relocate the road in 
areas that would not be susceptible to flooding and to washout 
and to do it in, I would say, as an environmentally sustainable 
manner as possible in a new location on a new route.
    Mrs. Napolitano. I am sorry. Go ahead.
    Mr. Wenk. I was done. I am sorry.
    Mrs. Napolitano. Is there currently signage to warn 
pedestrians or visitors of the dangers of flooding?
    Mr. Wenk. I cannot speak specifically to what signs exist. 
My belief would be that these would not be unanticipated 
circumstances, that it would not be from a sudden rainstorm 
that would cause this kind of damage. It would be sustained 
flooding based on snowpack and rainfall in the spring.
    Mrs. Napolitano. But during those minor events, it is not 
something that would endanger a human being or a horse.
    Mr. Wenk. I do not believe that is the case, no.
    Mrs. Napolitano. OK. What does it cost to reroute that new, 
100-foot corridor in that North Cascades Park outside of the 
wilderness and flooding areas?
    Mr. Wenk. In the estimate that was done in 2004, the cost 
was approximately between 1.3 and $1.5 million. That is a cost 
estimate that is not based on the environmental work that would 
need to be done, which we would estimate at about another half-
million dollars and would take approximately three years.
    Mrs. Napolitano. And that is 2005 figures.
    Mr. Wenk. Those were 2004 figures.
    Mrs. Napolitano. 2004, five years.
    Mr. Wenk. Yes.
    Mrs. Napolitano. What would be the guesstimate?
    Mr. Wenk. My guess would be it would be between two and two 
and a half million in today's costs.
    Mrs. Napolitano. Does that new, 100-foot corridor include 
any of the upper section of the road in the upper valley, or 
would the entire area be environmentally damaged if it was 
built upon that area?
    Mr. Wenk. The new section of road that I just discussed was 
just the upper valley. We are looking at improvements to the 
lower valley road, which is an additional approximately $6 
million of improvements to that road.
    Mrs. Napolitano. So that is not included, then, in your 
estimate of that 100-foot corridor.
    Mr. Wenk. No, it is not.
    Mrs. Napolitano. What plans are being made to assure that 
this is addressed in the future, or if any?
    Mr. Wenk. Absent this legislation, the National Park 
Service would maintain and operate that corridor as a 
pedestrian or horse access only on that upper section. So if 
and when this legislation is enacted, we would immediately 
begin the environmental review and the planning and then the 
construction of the road.
    Mrs. Napolitano. How much does this mean to that area 
economically?
    Mr. Wenk. I do not have that figure. Obviously, it is, if 
you will, a longstanding use that had occurred within the 
Stehekin area of the park, and I think others may be able to 
better answer your question in terms of what the economic and 
social impact of not having that is.
    Mrs. Napolitano. And, of course, the impact to the 
environment, the ecology.
    Mr. Wenk. Yes. Well, our concern was being able to sustain 
the road and that the environmental impact is something that 
will continue for years, if and when we would ever have to 
relocate the road again.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Grijalva. Before I ask Mr. Hastings, Mr. Wenk, let me 
just follow up a little bit on the precedent question that Mr. 
Hastings brought up and others have brought up. When we did Mr. 
Dicks's bill, about three weeks ago, the conveyance to the 
whole nation of those 37 acres; how is the situation we are 
talking about today different from that situation? That issue 
was health and safety, to a great extent, but is there a 
precedent, and I think that is the point that Mr. Hastings has 
repeated over and over again?
    Mr. Wenk. The legislation that you marked up three weeks 
ago would allow the tribe to manage the connection between 
their existing land and land they are acquiring, not from the 
National Park Service but from other private sources, on higher 
ground as they relocate their community.
    Two other important points: The land being conveyed would 
be protected from new development in the Hoh area, and there 
would be no cost involved to the National Park Service. The 
Department's support for the conveyance to the Hoh Tribe; we do 
not believe it should be viewed as a precedent for moving land 
from a protected status in order to facilitate the building of 
a road. One was wilderness; one was not. Development of two 
areas for the Hoh, I think, are the precedents that we are 
citing.
    Mr. Hastings. Real briefly, and I appreciate my friend from 
California's line of questioning and, again, the courtesy that 
the Subcommittee has given us to get our witnesses to perhaps 
answer those questions as to the economic consequences of not 
having that road. So your line of questioning, I hope, will be 
answered more directly by Commissioner England and Senator 
Parlette in the next panel.
    So I appreciate your line of questioning on that because 
this is an important part. Tourism, in fact, is what drives the 
economy in Stehekin. I yield back, Mr. Chairman.
    Mr. Grijalva. Let me thank the gentlemen. I know, Mr. 
Holtrop, you are exhausted from having to answer all of those 
questions, but thank you, gentlemen, and let me invite the next 
panel up.
    Mr. Wenk. Thank you, Mr. Chairman.
    Mrs. Napolitano. Mr. Chair, I would just like to mention 
that the Forest Service does an excellent job. I have met some 
of the men and women at the different parks, and I salute them 
and their service.
    Mr. Holtrop. Thank you very much.
    Mr. Grijalva. As the next panel comes up, let me ask the 
Chairman of the full Committee, Mr. Rahall, for any 
introductions of the panel, as they are here to speak to H.R. 
3113.
    Mr. Rahall. Thank you, Mr. Chairman, and I do want to 
especially welcome today, as they take their place at the 
table, first, the Pocahontas County Commission president, Marty 
Saffer. He is approaching the table now. I want to thank Gil 
Willis, who, I understand, is not here yet but still in traffic 
trying to get here; and Tom Shipley for traveling today to our 
nation's capital to present testimony on this bill.
    Commissioner Saffer is part of what I view as the new breed 
of politicians in his home county, Pocahontas County. He 
understands that the economic well-being of the residents and 
the conservation of the area's most significant natural 
resources are intertwined. He also understands that, as more 
and more people discover Pocahontas County, there will be 
increased demands on these resources.
    Gil Willis, who is not here yet, owns and operates the Elk 
River Touring Center, including the Elk River Inn and 
Restaurant. I have been there, I have seen the services he 
provides, and I would recommend it to anyone who is visiting 
the area. The menu is currently featuring a Pendleton County-
raised, West Virginia rainbow trout, seasoned in bacon. The 
gentlelady from California would know what the cooking is 
like--filleted at the tableside, accompanied by a risotto cake 
and rosemary-sweetened succotash. Well, why don't we just 
adjourn right now and move the Subcommittee out to have our 
hearing in Pocahontas County?
    Tom Shipley, who is approaching the witness table now, owns 
Sharp's Country Store near Slatyfork. Tom's great-grandfather, 
L.D. Sharp, first opened the store in 1884, and his great-
great-grandfather was taken prisoner of war in a log cabin that 
still stands behind the country store. I want to make it very 
clear that the initiative behind H.R. 3113 came from these 
gentlemen and the many other residents of the county. It is 
their initiative and their determination on this matter that 
shows, once again, that the grassroots are still very much 
alive and well in this country.
    I also want to welcome, in the audience is Clyde Thompson, 
the supervisor of the Mon. National Forest and Kate Goodrich-
Arling, who is also with the Mon. National Forest staff. So I 
recognize them for their attendance, as well as Marty's wife, 
Sheila, who, I understand, is in the audience as well. Thank 
you, Mr. Chairman.
    Mr. Grijalva. Thank you, Chairman. Let me begin with Mr. 
Benjamin Adams, President, Adams Memorial Foundation, H.R. 
2802, sir.

          STATEMENT OF BENJAMIN C. ADAMS, PRESIDENT, 
         ADAMS MEMORIAL FOUNDATION, NEW YORK, NEW YORK

    Mr. Adams. Good morning and thank you, Mr. Chairman, for 
inviting me to speak on behalf of the Adams Memorial 
Foundation. I am here to testify in support of H.R. 2802, which 
would extend the authority of the Adams Memorial Foundation to 
establish a memorial to John Adams and his legacy in 
Washington, D.C.
    You have my formal testimony, so I am going to hit on a 
couple of high points here and then reserve my time primarily 
for questions.
    Just to give you an overview, quickly, of H.R. 2802, a 
couple of points, I think, are worth noting. While memorials 
have been established in Washington for Presidents George 
Washington, Thomas Jefferson, Abraham Lincoln, John Adams and 
his legacy are notably underrepresented in our nation's 
capital.
    In 2001, Congress authorized the formation of the Adams 
Memorial Foundation to address this oversight. Since that time, 
the foundation has made some very significant progress in the 
process of creating a memorial, including establishing a board 
of trustees, hiring outside legal experts, urban planning and 
environmental experts, conducting a preliminary site assessment 
of over 20 sites, developing a conceptual design for the 
project, and otherwise moving forward relatively quickly.
    We are poised to enter, at this point, into the formal 
site-selection and environmental-assessment process that will 
take place over the next 12 to 18 months. This will be followed 
by a design competition, a capital campaign and, ultimately, 
construction of the memorial.
    We anticipate that it will take seven years for us to 
complete this and that, hopefully, at the end of seven years, 
we will have a first-class memorial that is open and available 
to the American public.
    The conceptual design that we are working on right now is a 
library and a garden, and we have a working title of ``The 
Adams Library of American Letters.'' It will be located in Area 
One outside of the reserve within Washington, D.C.
    However, under the Commemorative Works Act, the 
foundation's authority to build the memorial is set to expire 
on December 2nd of this year. H.R. 2802 will extend our 
legislation for another seven years, which, we think, is 
coincident with the timeline we talked about just a second ago 
and, with Congress' help, in seven years we will have a 
memorial that is up and running and open to the public.
    So, in conclusion, on behalf of the Adams Memorial 
Foundation, I formally request your support for H.R. 2802, to 
extend the foundation's legislative authority to establish a 
well-deserved memorial to honor the Adams legacy. Much of the 
ground work has been completed. Now is the time to start making 
the real strides to bring the foundation and the memorial to 
fruition.
    So thank you for the opportunity to testify here in front 
of the Committee on the important work of our foundation and to 
express our support for H.R. 2802. I look forward to answering 
any questions that you may have.
    [The prepared statement of Mr. Adams follows:]

              Statement of Benjamin C. Adams, President, 
             Adams Memorial Foundation, Inc., on H.R. 2802

    Good morning. Thank you Chairman Grijalva, Ranking Member Bishop 
and Members of the Committee for inviting me to speak today on behalf 
of the Adams Memorial Foundation. I am here to testify in support of 
H.R. 2802 which would extend the authority of the Adams Memorial 
Foundation to establish a memorial to John Adams and his legacy in 
Washington, DC.
    On November 5, 2001, Congress passed legislation authorizing the 
Adams Memorial Foundation, a subsequently formed 501(c)(3) non-profit 
corporation, to establish a memorial commemorating the Adams family in 
Public Law 107-62. On December 2, 2002, Congress further authorized the 
Foundation to place the memorial in Area I of Washington, D.C. outside 
of the Reserve in Public Law 107-315. Since that time, the Foundation 
has made significant progress towards this goal and has, among other 
activities, (i) established a board of trustees and supporting 
committees consisting of notable historians, business leaders and fine 
arts professionals; (ii) developed an initial design concept for the 
memorial; (iii) researched and conducted a preliminary review of more 
than twenty potential site locations; (iv) engaged a leading provider 
of commemorative planning and design services to complete both an 
alternate site study and environmental assessment study of potential 
sites; and (v) coordinated with the U.S. Congress, National Park 
Service and other important stakeholders.
    However, under the terms of the Commemorative Works Act, the 
authority of the Adams Memorial Foundation is scheduled to expire on 
December 2, 2009. H.R. 2802 would create a seven-year reauthorization 
of the Adams Memorial Foundation. This extension would provide the 
Foundation with necessary time to complete a formal alternative site 
study and an environmental assessment of potential sites. Once a site 
has been secured, the Foundation will then hold a design competition to 
select a final design for the memorial. Following site and design 
approval, ground breaking and construction will begin. The Foundation 
intends to complete the Adams memorial within the next seven years and 
open its doors to the public to allow the U.S. and the world to learn 
more about the important contributions of the Adams family.
History of the Adams Family
    It is important to keep in mind the extraordinary legacy of service 
by generations of Adamses and their impact on the establishment of our 
country.
    John Adams was one of the most influential Founding Fathers of the 
United States. Born in 1735 in Braintree, later known as Quincy, 
Massachusetts, John Adams was educated at Harvard and spent his early 
career as a lawyer. As a lawyer, he is best remembered for his 
successful defense of the British soldiers accused of the Boston 
Massacre, a role that did not sit well with his fellow countrymen, but 
reflected a stubbornly principled personality and a passionate belief 
that all men deserved equal protection under the law.
    As a leader of the American Revolution, John Adams served as a 
delegate to both the First and Second Continental Congresses, and was 
regarded as the leading voice championing independence from Great 
Britain. John Adams not only helped draft the Declaration of 
Independence, but also authored the Constitution of the Commonwealth of 
Massachusetts, which is the oldest written constitution still in force 
today.
    During the Revolutionary War, John Adams served as a U.S. 
representative to France and the Netherlands, both assisting to finance 
the war and bring it to a close with the Treaty of Paris. He 
subsequently served as our first Minister to the Court of St. James's 
before returning to the United States to become our first Vice 
President under President George Washington. In 1796, John Adams was 
elected the second President of the United States, and in 1800 became 
the first occupant of the newly constructed White House.
    Abigail Smith Adams, wife of John Adams and mother of John Quincy 
Adams, was an early advocate for women's rights. She was a notable 
abolitionist and fought for liberty through her writing. John Adams and 
Abigail Adams were prolific writers and many of their letters have been 
preserved and were highlighted in David McCullough's book and recent 
HBO mini-series on the Adams family.
    Like his father, John Quincy Adams was a distinguished lawyer and 
legislator. Before becoming the sixth President of the United States, 
he served as U.S. Senator and Secretary of State under President James 
Monroe. John Quincy Adams, conversant in seven languages, also served 
as Minister to the Netherlands, Prussia, Russia, and Great Britain. In 
addition, John Quincy Adams was the chief negotiator of the Treaty of 
Ghent, which ended the War of 1812. John Quincy Adams also authored the 
famous Monroe Doctrine. Unlike any President before or since, John 
Quincy Adams returned to public service after his presidency as a 
member of the House of Representatives where he served until his death. 
There, he fought tirelessly against slavery, successfully defended the 
Mendi people in the U.S. Supreme Court in the Amistad Affair recently 
popularized in a movie by Steven Spielberg, and became known as ``Old 
Man Eloquent.''
    Louisa Catherine Adams was the wife of President John Quincy Adams. 
Louisa Catherine Adams was the only First Lady to be born outside of 
the United States. She was an educated and distinguished woman who 
wrote on behalf of women's rights and in opposition to slavery. So 
respected for her role as a diplomatic wife and First Lady that upon 
her death both the U.S. Senate and the House of Representatives 
adjourned in her honor.
    Charles Francis Adams, the son of John Quincy and Louisa Catherine 
Adams, served six years in the Massachusetts legislature before 
receiving the Free Soil Party's vice-presidential nomination in 1848. 
Known as a staunch abolitionist, Charles Francis Adams was elected to 
his father's seat in the House of Representatives in 1856. Like his 
father and grandfather before him, Charles Francis Adams served as 
Minister to Great Britain, and worked to prevent the British Government 
from recognizing the confederacy's independence during the Civil War.
    Henry Adams, the son of Charles Francis Adams, was also an avid 
writer, scholar and historian, penning such important works as 
Democracy, The Education of Henry Adams, and the nine-volume History of 
the United States during the Administrations of Jefferson and Madison.
    While commemorative works have been established for former 
Presidents George Washington, Thomas Jefferson and Abraham Lincoln in 
Washington, DC, John Adams and his legacy are notably unrepresented in 
our nation's capital. Congress acted in 2001 to remedy this oversight 
and the Adams Memorial Foundation intends to ensure that an appropriate 
memorial is established to honor legacy of the Adams family.
The Adams Memorial Foundation
    The Foundation, along with the financial support of private donors, 
has been diligently working to plan and construct a memorial to 
recognize John Adams and his legacy. Since the creation of the 
Foundation, we have assembled an impressive board of trustees, advisors 
and experts that will help facilitate the creation of an appropriate 
memorial.
    The Foundation's Board includes: Donald B. Myer, FAIA, Former 
Assistant Secretary of the U.S. Commission of Fine Arts; John A. 
Morgan, Chairman, Morgan, Joseph & Co.; Mark E. Denneen, Chief 
Executive Officer, Denneen & Co.; E. Franklin Harris, Managing Director 
of the Lincoln International LLC; and Peter F. O'Connell, President of 
the Marina Bay Corporation. The Hon. Timothy J. Roemer, former 
Representative of Indiana's Third Congressional District and co-sponsor 
of our original enabling legislation, stepped down from our board just 
last week to assume the post of U.S. Ambassador to India.
    The Honorary Committee includes: David G. McCullough, Author and 
Historian; Dennis A. Fiori, Director of Massachusetts Historical 
Society; Daniel P. Jordan, President of the Thomas Jefferson 
Foundation; Cokie Roberts, Journalist and Author; Richard H. Driehaus, 
Chairman of Driehaus Capital Management; and Edward J. Keohane, 
President of the Quincy Partnership.
    The Architectural Committee includes: Harold L. Adams, FAIA, RIBA, 
JIA, Chairman Emeritus of RTKL Associates Inc.; John Belle, FAIA, RIBA, 
Beyer Blinder Belle Architects and Planners, LLP; Heather Wilson Cass, 
FAIA, Cass & Associates Architects, PC; Edward Dunson, AIA, Howard 
University College of Engineering, Architecture, & Computer Science; 
Gregory K. Hunt, FAIA, Leo Daly Architects; and F. Douglas Adams, AIA, 
F. Douglas Adams and Associates Architects, Inc.
    The Foundation also relies on its independent Audit Committee 
Chairman, Steven Elek of PriceWaterhouseCoopers, and on Special Advisor 
Rodney M. Cook, President of the National Monuments Foundation.
Conceptual Design of the Adams Memorial
    Among John Adams's heroes was Cicero, the great Roman philosopher 
and politician, whose idea of heaven was represented by a library in a 
garden. Visitors today to the Adams National Historical Park in Quincy, 
Massachusetts will find just that: a handsome stone library constructed 
by Charles Francis Adams in 1873, nestled in an nineteenth century 
garden where Abigail Adams's roses still bloom. The Adams Memorial 
Foundation's vision for a memorial in Washington, D.C. is to create 
something similar, the Adams Library of American Letters, a library of 
eighteenth century design and scale, set in a peaceful garden in the 
heart of our nation's capital. Drawing upon the extensive writings of 
four generations of Adams politicians and scholars, the Adams Library 
will provide a gateway for generations of Americans to explore our 
nation's history through the lens of a great American family. From the 
colonial era to the Revolutionary War and the early days of American 
independence, and from the early abolitionist movement through the 
civil war and the emancipation of the slaves, the writings of multiple 
generations of Adamses provide a critical narrative thread to 
understanding the history of the United States.
Next Steps to Establish the Adams Memorial
    Over the next seven years, the Foundation will: (i) conduct a site 
selection and environmental assessment (approximately 12-18 months); 
(ii) hold a design competition (approximately 9-12 months); (iii) 
secure final design approval and raise significant private capital to 
fund the construction of the memorial (approximately 2-3 years); and 
(iv) break ground and construct the memorial (approximately 2 years). 
To this end, the Foundation has engaged engineering and legal experts 
to assist in the process. The Foundation plans a significant capital 
campaign as required by the original authorization, which states that 
the memorial must be built with private funds. The Foundation has been 
closely coordinating its activities with the National Park Service.
    However, unless Congress acts, the authority of the Adams Memorial 
Foundation will expire under the terms of the Commemorative Works Act 
(40 USC Sec. 8903) on December 2, 2009. In order for the next phase to 
commence, we request that Congress enact H.R. 2802. This legislation 
would extend the authority of the Adams Memorial Foundation for another 
seven years. This extension would provide the Foundation with the 
necessary time to complete all the required steps to create a 
presidential memorial.
    On behalf of the Adams Memorial Foundation, I formally request your 
support for H.R. 2802 to extend the Foundation's legislative authority 
to establish a well deserved memorial to honor the Adams legacy. Much 
of the groundwork has been completed, and now is the time to start 
making strides to bring Adams memorial to fruition.
    Thank you for the opportunity to testify before this Committee on 
the important work of the Adams Memorial Foundation and to express our 
ultimate support for H.R. 2802. I look forward to answering any 
questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Adams.
    Linda Evans Parlette, Washington State Senator, 12th 
District. Madam Senator?

 STATEMENT OF THE HON. LINDA EVANS PARLETTE, WASHINGTON STATE 
               SENATOR, 12TH LEGISLATIVE DISTRICT

    Ms. Parlette. Thank you, Chairman Grijalva and Congressman 
Bishop and Members of the Committee, for hearing the bill which 
I am supporting, H.R. 2806.
    For the record, my name is Linda Evans Parlette. I am the 
Washington State Senator for the 12th Legislative District in 
North Central Washington. My district includes the community of 
Stehekin, the Lake Chelan Recreation Area, and the North 
Cascades National Park. I have submitted 12 pages of detailed 
written testimony for the record. On page 3 of that written 
testimony, you will learn about the visitors' centers that are 
in the North Cascades National Park.
    Let me quickly define the issue. Part of an historic, 
primitive road which provided the only vehicular access into 
the North Cascades National Park from Stehekin, a road that is 
approximately 12 miles long, washed out due to an historic 
flood in 2003.
    This road, Mr. Chair, was there prior to the North Cascades 
National Park being created in 1968. This road was there before 
the 1988 Washington Parks Wilderness Act. As a matter of fact, 
this road was there in 1899, when my grandfather, Ray O'Neal, 
worked on one of the original small ferries that traveled from 
Chelan to Stehekin.
    Bottom line: This road to Cottonwood Camp, also known as 
the ``Upper Stehekin Valley Road,'' has existed since the 19th 
century.
    As a result of the 2003 flood, the National Park Service 
did an environmental assessment on the Upper Stehekin Valley 
Road in 2006. Ninety percent of those who gave comments 
supported the road to Cottonwood Camp staying open.
    The most viable option was Alternative D. Alternative D 
would move the small portion of the 12-mile road that 
continually washes out to where the pioneers built the road in 
the 19th century, away from the meandering Stehekin River, a 
common-sense solution to move that section to the ``old wagon 
road.''
    The National Park Service, however, concluded that they did 
not have the authority to move the section of the road, as 
proposed in Alternative D of the 2006 environmental assessment, 
due to the constraints of the Washington Parks Wilderness Act.
    With all due respect to the National Park Service, Mr. 
Chair, I am shocked and quite disappointed at the National Park 
Service's testimony against this bill. As recent as August 8, 
2008, the Olympic National Park General Management Plan was 
approved by a record of decision signed by Regional Director 
John Jarvis and subsequently published in the Federal Register 
on November 12, 2008.
    My written testimony states the exact language used for 
Olympic National Park and, due to the previous comments, I will 
read it: ``If the road relocation away from the river meander 
areas is feasible, wilderness boundary modifications would be 
sought as necessary with no net loss of total Olympic National 
Park wilderness acreage.''
    I ask you, Mr. Chair, and Members of the Committee, why, 
when wilderness areas, by law, were added from Mount Rainier, 
Olympic, and the North Cascades Parks all at the same time, are 
different management standards allowed? This is nothing short 
of disparate treatment and unequal application of the law.
    I support H.R. 2806 because it would restore access to 
rustic park facilities and scenic wilderness areas within the 
North Cascades National Park. A visitor to Stehekin could once 
again access the wilderness trails in a weekend.
    I support H.R. 2806 because it enables the intent of the 
original co-sponsors of the bill, former three-term Washington 
State Governor and United States Senator Daniel J. Evans and 
the late U.S. Senator Brock Adams; that is to say, it was their 
intent to maintain a recreational-access corridor in the 
designated wilderness area within the North Cascades National 
Park. Former Senator Dan Evans has provided written testimony.
    I also support H.R. 2806 because it would allow the 
National Park Service to remain in compliance with the 1995 
general management plan for the Lake Chelan National Recreation 
Area, which calls for the road to Cottonwood Camp to remain 
open.
    I also would be supportive of a narrower version of H.R. 
2806, which could clearly state that, notwithstanding any other 
provision of the law, the National Park Service shall build the 
road consistent with Alternative D of the Upper Stehekin Valley 
Road environmental assessment of 2006.
    To conclude, Mr. Chair, Senator Evans stated, when he 
introduced the legislation in 1988, and I quote, ``What the 
bill would not do is keep the park visitors shut out of the 
park. All of the existing transportation and development 
corridors would be excluded from wilderness designation.''
    ``Stehekin'' means ``the way through.'' It is time to 
reopen the way through. Congress should recognize this 
historic, grandfathered access to the Upper Stehekin Valley, 
just as Senator Evans envisioned, so that we can maintain, and 
even increase, the number of citizens and taxpayers who will 
appreciate and protect this magnificent park. Thank you, Mr. 
Chairman. I welcome questions.
    [The prepared statement of Senator Parlette follows:]

           Statement of The Honorable Linda Evans Parlette, 
   Washington State Senator, 12th Legislative District, on H.R. 2806

    Mr. Chairman and members of the committee: thank you for the 
opportunity to appear before you today to offer testimony on H.R. 2806, 
a bill authorizing the Secretary of the Interior to adjust the boundary 
of the Stephen Mather Wilderness and North Cascades National Park in 
order to allow the rebuilding of a road outside of the Stehekin River 
floodplain. This adjustment would ensure that there would be no net 
loss of acreage to the park and wilderness.
    For the record, my name is Linda Evans Parlette. I am the 
Washington State Senator for the 12th Legislative District in North 
Central Washington. I represent all of Chelan and Douglas counties, as 
well as a portion of both Grant and Okanogan counties. My district 
includes the community of Stehekin, the Lake Chelan Recreation Area and 
the North Cascade National Park. My legislative district is part of the 
4th and 5th Washington State Congressional Districts.
    Stehekin is a tiny community located at the West end of Lake 
Chelan, a glacier fed natural lake--the largest in Washington state, 
and the 7th largest in the United States. The Stehekin landing can be 
reached only by boat, float plane, or spending two or three days hiking 
in.
    My grandfather, Ray O'Neal's first job when he came to Chelan in 
1899 was working on the small ferry from Chelan to Stehekin. My family 
still has the small, original rustic cabin my grandfather built in 
Stehekin beyond Company Creek; we have long enjoyed our unique Stehekin 
heritage.
    The primitive road to Cottonwood Camp existed prior to the creation 
of the North Cascades National Park in 1968 and the Washington Parks 
Wilderness Act of 1988(PL 100-668). The Cottonwood Camp Road was built 
over 100 years ago in the late 1800s.
    I support H.R. 2806 because it would restore access to rustic park 
facilities and scenic wilderness areas within the North Cascade 
National Park. It would also provide legislative clarity to the intent 
of the Washington Parks Wilderness Act of 1988 (PL 100-668); and assure 
the National Park Service (NPS) is consistent in their road management 
practices within the wilderness areas in the Olympic, Mount Rainer, and 
North Cascade National Parks.
    I am also supportive of H.R. 2806 because it enables the intent of 
the original co-sponsors, former U.S. Senator Daniel J. Evans and the 
late U.S. Senator of the 1988 Washington Parks Wilderness Act that 
designated wilderness within this magnificent National Park. That is to 
say, it was their intent to maintain a recreational access corridor in 
the designated wilderness area within the North Cascades National Park. 
H.R. 2806 would also allow the National Park Service (NPS) to remain in 
compliance with the 1995 General Management Plan for the Lake Chelan 
National Recreation Area, which calls for the road to Cottonwood Camp 
to remain open.
    I would also be supportive of a narrower version of H.R. 2806 which 
could clearly state that notwithstanding any other provision of law; 
the National Park Service shall build the road consistent with 
Alternative D of the Upper Stehekin Valley Road Environmental 
Assessment of 2006. I will elaborate on this possibility later in this 
testimony.
Restoring Access to Park Facilities and Wilderness Areas:
    In the 1995 General Management Plan for the Lake Chelan Recreation 
Area, the National Park Service (NPS) ``Proposed Action'' calls for 
maintaining vehicular access to Cottonwood Camp. Shortly after adoption 
of this plan in 1995, the Stehekin River flooded causing a half mile 
section of the road to washout between Glory and Cottonwood Camp.
1995 Flood
    Since the Stehekin River is glacial fed, the main channel meanders 
from one side of the canyon to the other, and then back again, over 
time. In 1995, the river was literally flowing right down the road for 
about a half mile. The NPS could not repair it within the ``Non 
Wilderness Corridor'', but knew that, over time, the river would 
eventually move out of the corridor once again. The NPS made the 
commitment to have their geomorphologist monitor the river at this 
location every year and, as soon as it showed signs of moving away from 
the ``Non Wilderness Corridor'' re-establish the road again.
    The NPS felt this decision was appropriate in that: 1) the NPS 
committed to rebuild the road within the ``Non Wilderness Corridor'' 
when it was physically possible; 2) the NPS only shortened the road by 
2.5 miles; 3) this ``shortening'' only added about two hours to what 
had been a day hike from Cottonwood Camp or one hour to a trip over 
Cascade Pass; and 4) vehicular traffic to the Bridge Creek/Flat Creek 
Trailheads were still viable.
2003 Flood
    In 2003 a five hundred year flooding event struck the Stehekin 
River. This resulted in extensive damage to private property within the 
community of Stehekin, severe damage to roads and other National Park 
Service infrastructure within Lake Chelan National Recreation Area, and 
unprecedented damage to the Upper Stehekin Valley Road within the North 
Cascades National Park.
    The Stehekin community, with the assistance from Chelan County, the 
Army Corps of Engineers, and the National Parks Service repaired 
virtually all damage to infrastructure within the Lake Chelan National 
Recreation Area and the Lower Stehekin Road; however, the Upper 
Stehekin Valley Road remained impassable above Car Wash Falls.
    The Cottonwood Camp Road, also referred to as the Upper Stehekin 
Valley Road, runs approximately 12.8 Miles from the National Park-
National Recreation Area boundary at High Bridge to the Cottonwood 
Camp. The road remains impassable above Car Wash Falls; which is 
located approximately 12.9 miles from the Stehekin Landing and just 1.7 
miles above High Bridge.
    The Washington Parks Wilderness Act of 1988 (PL 100-668), which 
establishes the Stephen Mather Wilderness Area, provides for a 100 foot 
wide (50 feet from either side of the centerline of the Road as it 
existed at the time of the Act) non-wilderness corridor to accommodate 
this Cottonwood Camp Road. This was done in recognition of the 
traditional and vital role that this road plays in providing access to 
exceptional day hikes and fishing opportunities in the Upper Stehekin 
Valley.
    The Wilderness area overlays 93 % of the North Cascades National 
Park complex. The Park complex is comprised of three park units: the 
North Cascade National Park, the Ross Lake National Recreation Area and 
the Lake Chelan National Recreation Area. The Road falls within the 
North Cascade National Park unit.
    The Act also created non-wilderness enclaves designated around the 
facilities at Bridge Creek and Cottonwood Camp. These enclaves were 
designated in recognition of the existing development and the potential 
for future expanded primitive development in these areas.
    To facilitate visitor access to the Upper Valley, the National Park 
Service developed a shuttle system utilizing the primitive road 
corridor in the Lake Chelan National Recreation Area and the North 
Cascade National Park to allow more day hikes, rather than overnight 
stays, into areas like Horseshoe Basin, Trapper Lake, Flat Creek, Goode 
Ridge and many others. The shuttle use in the Upper Stehekin Valley 
(above High Bridge) was approximately 2,500 people per year, based upon 
National Park Service ridership figures. This ridership included day 
visitors, people that used the campgrounds along the road, and hikers 
going and coming from trailheads. It is estimated that an addition 500 
to 800 people also utilized private vehicles on this road to access 
facilities in the park. Without vehicular access, it now takes three to 
four days to access trailheads in the Upper Stehekin Valley. This, of 
course, excludes access by those who are not physically capable of such 
long treks or do not have that much time.
    As a result of the 2003 flood, the National Park Service undertook 
an Environmental Assessment on the Upper Stehekin Valley Road. As 
required by the National Environmental Policy Act, the NPS looked at 
all ``reasonable alternatives'' to mitigate the damage caused to the 
road. They came up with four alternatives: Alternative A--No Action; 
Alternative B--Permanently close Stehekin Valley Road Above Car Wash 
Falls; Alternative C--Reconstruct the Stehekin Valley Road from Car 
Wash Falls to Glory and, Alternative D--Reroute the Stehekin Valley 
Road from Car Wash Falls to Bridge Creek and from Glory to Cottonwood 
Camp.
    The National Park Service solicited public comment on all purposed 
``reasonable alternatives'' for the Upper Stehekin Valley road and out 
of the 251 people who provided input: 37 supported Alternative D, and 
178 supported a ``new'' alternative--a variation of Alternative C of 
rebuilding the road within the non-wilderness corridor not considered 
in the EA. Here is the point: Nearly ninety percent of those commenting 
wanted the road to Cottonwood Camp to remain open.
    The closure of the Upper Valley Stehekin Road has had a negative 
effect on the economic viability of the Stehekin Community by limiting 
access to trailheads and rustic park facilities. It has also created a 
safety concern for valley residents and visitors.
    With an impassible road above Car Wash Falls, vehicular access to 
multiple trailheads for recreational purposes, as well as fire and 
safety purposes, is impossible. In addition to trail access being 
diminished, there are a significant number of visitor facilities at 
Bridge Creek that used to be accessible by vehicle. These facilities 
include: a campground, corral, Ranger Patrol Cabin, National Register 
listed historic public shelter, pit toilets, and an emergency cabin 
maintained by Chelan County Public Utility District. There is also a 
six site campground and pit toilets at Cottonwood Camp that use to be 
accessible by vehicle.
    Although Alternative ``D'' was considered a reasonable alternative 
and received a great deal of support, it was not selected as the 
``preferred'' alternative due to the interpretation of the Washington 
Park Wilderness Act of 1988. If adopted, it would have relocated the 
current road corridor in two locations and utilize what is called the 
old ``Wagon Road''. This is the location that the pioneers created in 
the first place as it is on higher and safer ground, away from the 
meandering Stehekin River. This ``Old Wagon Road'' should enjoy 
grandfathered status. The ``Old Wagon Road'' is located from MP 12.7 to 
MP 15.3 (0.6 miles south of Bridge Creek) and from MP 20.8 to MP 22.8.
    Ultimately, the NPS chose Alternative B: permanently close Stehekin 
Valley Road above Car Wash Falls, as their ``preferred'' alternative 
stating, ``the constraints of the Washington Parks Wilderness Act 
(Public Law 100-668) compound the problem of retaining motorized 
access.''
Clarification of Legislative Intent and Authority:
    The Washington Parks Wilderness Act of 1988 (PL 100-668) did not 
include any additional provisions about maintaining roads in the event 
of a severe flood or natural catastrophe. Therefore, the NPS stated it 
believed there is nothing in the law that would indicate Congress 
intended for the NPS to maintain the Upper Stehekin Road when 
confronted with substantial damages caused by flood.
    I am privileged to know one of the original co-sponsors of the 
Washington Parks Wilderness Act of 1988 (PL 100-668), former United 
States Senator and three-term Washington State Governor, Daniel J. 
Evans. We have spoken often about the ``Road to Cottonwood'' issue and 
the intent of this legislation.
    When introducing the Washington Parks Wilderness Act of 1988 (PL 
100-668), former Senator Daniel J. Evans stated in the Congressional 
record, ``What the bill would not do is to keep the park visitors shut 
out of the park. All of the existing transportation and development 
corridors would be excluded from wilderness designation.'' The 
legislative history of the Wilderness Act speaks specifically to 
maintaining the essential recreational corridors (the roads) when 
designating wilderness in Mount Rainer, Olympic and the North Cascades 
National Park.
    In his July 8th, 2009 written testimony to you, Senator Evans 
reiterates the importance of these transportation corridors and the 
need to clarify the intent of the Washington Park Wilderness Act of 
1988 (PL 100-668) to keep these corridors open to vehicle 
transportation as a means to insure access to recreational areas in our 
wilderness National Parks. He states:
        ``I believe very strongly that continued protection of our 
        wilderness National Parks depends on the active support of 
        visitors, hikers, and climbers who act as champions of our 
        National Parks. If we make access substantially more difficult 
        we reduce the number of visitors and ultimately the number of 
        citizens and taxpayers who know enough about these parks to 
        want to protect them.''
    I believe direction is needed to provide consistent management 
standards to the National Park Service for the recreational corridors 
that provide access to facilities and pristine wilderness areas. H.R. 
2806 is a reasonable step in this process. This is especially true 
since the NPS road management policies are inconsistent in their 
application to wilderness created under the Washington Park Wilderness 
Act of 1988 (PL 100-668).
Road Management Practices:
    As recently as August 8th, 2008, the Olympic National Park General 
Management Plan was approved through a Record of Decision (ROD) signed 
by Regional Director Jon Jarvis and subsequently published in the 
federal register on November 12, 2008. With respect to roads, the ROD 
states: ``Road access will be maintained to existing front county areas 
for resource protection, river restoration, and/or maintain vehicular 
access. Wilderness boundaries may be adjusted along roads to allow 
continued road access into the park; however, there will be no net loss 
of wilderness acreage.''
    This Record of Decision implies the National Park Service has 
already made a commitment to pursue options within wilderness 
designated under the Washington Parks Wilderness Act of 1988 (PL 100-
668) to maintain road corridors with a no net loss of wilderness 
approach! The current NPS opposition to H.R. 2806 is inconsistent and 
arbitrary when compared to the General Management Plan for the Olympic 
National Park that calls for adjusting wilderness boundaries to allow 
continued road access within the Park.
    Additionally, their choice of wording in the reference to ``front 
country areas'' is confusing as, in many cases, these roads, run as a 
corridor through wilderness before reaching a trailhead facility and/or 
camping area, such as the Hoh road in the Olympic National Park and the 
Upper Stehekin Road in the North Cascade National Park.
    The Record of Decision for Olympic National Park and its suggested 
``no net loss of wilderness'' approach to the adjustment of wilderness 
boundaries along roads that provide access to facilities and trailheads 
creates a philosophical and management conflict with respect to these 
essential recreational corridors when compared to the current NPS 
position on the Stehekin Valley Road.
    Specifically this conflict is highlighted by the following language 
found in the Olympic National Park General Management Plan:
        ``If road relocation away from river meander areas is feasible, 
        wilderness boundary modifications would be sought as necessary, 
        with no net loss of total Olympic National Park wilderness 
        acreage.''
    Mr. Chairman, I ask this simple question: how can the National Park 
Service adopt a Record of Decision supporting boundary adjustments 
along roads which wash out due to river meandering in the Olympic 
National Park yet so strongly oppose adoption of the identical approach 
with respect to the Stehekin Valley Road within the North Cascades 
National Park?
    This inconsistency is amplified when one considers The General 
Management Plan for Lake Chelan National Recreation Area, produced by 
the National Park Service in 1995, which reconfirmed the importance of 
maintaining road access to Cottonwood Camp. After several years of 
dialogue, debate, and threatened law suits, the General Management Plan 
(GMP) ``Proposed Action'' specifically called for maintaining vehicular 
access to Cottonwood Camp:
           ``The Stehekin Valley road between the Landing and Harlequin 
        Bridge would remain a two-lane paved road; from Harlequin 
        Bridge to 9-Mile, it would become a single-lane, paved road 
        with pullouts; from 9-Mile to High Bridge, a single-lane, 
        gravel road; and from High Bridge to Cottonwood, a heavy-duty, 
        high-clearance shuttle vehicle road.

           Unconstrained private vehicle use would end at High Bridge. 
        Private vehicle use from High Bridge to Bridge Creek would be 
        allowed, but traffic flow would be regulated by season of year 
        and/or hour of day. Public shuttle service would be provided 
        from the Landing to Cottonwood. Only the public shuttle 
        service, hikers, horses, and bicycles would be allowed to use 
        the road from Bridge Creek to Cottonwood. The National Park 
        Service would seek a concessioner to replace the NPS-operated 
        public shuttle service. Frequency of shuttle service would 
        increase over the current rate. Fare structure would provide 
        discounts for frequent and local public shuttle users.''
    Given the reasonable, no net loss of wilderness, approach used in 
H.R. 2806, I simply cannot understand why the National Park Service 
opposes legislation that would allow it to conform to the lengthy and 
expensive planning process they undertook in 2006.
    The standard for wilderness management within National Parks should 
be the same. Allowing for different interpretations is a travesty with 
respect to maintaining access corridors in wilderness areas within 
National Parks which invites ridicule of the National Park Service and 
fosters disrespect for government. After all, citizens are entitled to 
``equal protection'' under the law.
    The language in the 2006 Upper Stehekin Valley Road Environmental 
Impact Statement itself more accurately describes that the National 
Park Service would seek legislative authority to move the wilderness 
boundaries consistent with a ``no net loss'' approach. Bottom line, the 
NPS should have clear Congressional direction on how damage to 
recreational corridors within designated wilderness should be mitigated 
when caused by natural disaster. This will assure the same standards 
are applied to all designated wilderness.
Conclusion:
    Congress should clarify the Washington Parks Wilderness Act of 1988 
(PL 100-668) to provide the National Park Service with clear direction 
as to their authority when faced with the need to repair recreational 
corridors or roads which are altered by natural disasters. I believe 
H.R. 2806 is a reasonable approach to providing the clarity needed for 
the Upper Stehekin Valley Road. I would also be supportive of a policy 
that would provide clarification for all wilderness dedicated under the 
Washington Parks Wilderness Act of 1988 (PL 100-668), which calls for a 
no net loss acreage to the parks and wilderness.
Alternative Approach
    I would also be supportive of a narrower version of H.R. 2806, 
which could clearly state that notwithstanding any other provision of 
law; the National Park Service shall build the road consistent with 
Alternative D of the Upper Stehekin Valley Road Environmental 
Assessment.
    You are not being asked to ``guess'' at the costs or the 
environmental impacts of adopting H.R. 2806. The work has been done.
    If Congress were to direct the National Park Service to implement 
Alternative ``D'', the estimated implementation costs have been laid 
out in the Findings of No Significant Impact for the Upper Stehekin 
Valley Road Car Wash Falls (MP 12.9) to Cottonwood Camp (MP 22.8) North 
Cascades NPS Complex:
        ``This alternative [Alternative D] would take two to three 
        years to implement, and the estimated cost of implementation is 
        $1,339,075. Under this alternative, the estimated cost of 
        routine, annual road and trail maintenance is $13,968.''
    The NPS hired the Wenatchee National Forest Road Engineering 
Department to flag the new road route to complete this estimate and 
provide the exact location of the re-route. The Environmental 
Assessment was done in a manor to allow direct implementation of 
Alternative ``D'', should Congress provide the legislative authority 
without further study.
    There are two advantages in directing the National Park Service to 
reopen the road to Cottonwood Camp in a manor congruent to Alternative 
``D.'' First of all, the road between Car Wash Falls and Bridge Creek 
would actually be approximately 0.2 miles shorter than the segment it 
would replace (2.2 vs. 2.4 miles; 3.2 vs. 3.5 acres), which would 
result in a gain in wilderness.
    The second advantage is that by moving this portion of the road 
back to its original location, it would eliminate the potential for 
future damage and associated repair costs. It is ironic that the 19th 
Century Pioneers were truly wiser when they built the historic ``Mine-
to Market Road'' on higher ground to avoid conflicts with floods, a 
road that also allowed visitors of the Field's Hotel to access the 
majestic cirque of cascading waterfalls at Horseshoe Basin. This road 
needs to return to being the ``gateway to wilderness'' in the North 
Cascades National Park.
    Mr. Chairman, at the beginning of my testimony I mentioned my 
grandfather. I am so lucky to have parents who will celebrate 65 years 
of marriage on September 3rd. My Dad, an 86-year-old World War II 
Marine, continues to fish in the Stehekin River with my Sons every 
summer. He no longer can access the fishing holes in the Upper Stehekin 
Valley as walking that many miles in a day is no longer possible. He 
hopes to live long enough to see the road reopened.
    The word Stehekin means ``the way through.'' It is time--To Reopen 
``The Way Through.'' Congress should recognize this historic, 
grandfathered access to the Upper Stehekin Valley just as Senator Evans 
envisioned, so that we can maintain and even increase the number of 
citizens and taxpayers who will appreciate and protect this magnificent 
park.
    Mr. Chairman, thank you for your time and this concludes my 
testimony. I will be pleased to answer questions.
Appendix
Figure A1. Project Area-Upper Stehekin Valley Road FONSI 8/17/2006
Figure A2. Upper Stehekin Valley Road EA Pg. 204, A1--Slide Damage at 
        Car Wash Falls
Figure A3. Upper Stehekin Valley Road EA Pg. 205, A2--Landslide at MP 
        15 in 2003
Figure A4. Upper Stehekin Valley Road EA Pg. 206, A3--Road Reroute 
        (Alternative D)
Figure A5. Upper Stehekin Valley Road EA Pg. 207, A4--Road Reroute 
        (Alternative D)
Figure A6. National Park Service Shuttle Bus on the Stehekin Valley 
        Road, Stehekin School Children Hiking in North Cascades 
        National Park
Figure A7. Horseshoe Basin, North Cascades National Park

[NOTE: Attachments have been retained in the Committee's official 
        files.]
                                 ______
                                 
    Mr. Grijalva. Commissioner Doug England, Chelan County 
Commissioner, on H.R. 2806. Mr. Commissioner.

    STATEMENT OF DOUG ENGLAND, CHELAN COUNTY COMMISSIONER, 
                     WENATCHEE, WASHINGTON

    Mr. England. Mr. Chairman and Members of the Subcommittee, 
my name is Doug England, Commissioner, Chelan County, 
Washington. Thank you for making this hearing possible and to 
Congressman Hastings for introducing this important legislation 
for the people of our county.
    Fully 80 percent of our county is owned and controlled by 
the Federal government. With a population of just over 70,000 
the county's residents are joined by visitors from all over the 
world to ensure that it is unique and see its unique beauty. 
Historically, one of the most special places of all is the 
Stehekin Valley in the North Cascades National Park.
    Since it became known that this Committee would hold this 
hearing, I have received a surge of calls reflecting 
frustration that no one is listening to our plea for common 
sense. Thank you, Congressman Hastings, for listening.
    The comments that I hear are all strikingly similar. Please 
allow my children and those not blessed with the time or the 
ability to share my experience of this beautiful valley.
    Let me draw heavily upon an editorial in the Yakima Herald 
Republic written by Scott Sandberry to tell their story. It 
tells of a huge photograph of Horseshoe Basin that hung for 
years in the Stehekin Valley. Visitors marveled at the picture 
and then would ask for directions to see for themselves the 
area once described in a 1960 Sierra Club documentary film as a 
``crown jewel of America's scenic grandeur.''
    They do not ask that now. The photograph has been taken 
down. Locals got tired of having to tell visitors that unless 
they could don a backpack for a 30-mile round trip, they could 
no longer get to Horseshoe Basin or, for that matter, to a 
myriad of other back-country destinations.
    In the language of the native Indians, ``Stehekin'' meant 
``the way through,'' but, in October of 2003, a 500-year flood 
washed out the Stehekin Valley Road, which, a century earlier, 
had gone nearly to Horseshoe Basin, ``dead-ending,'' to quote 
that same 1960 film, ``in paradise.'' Now, it ends at a rather 
nondescript stop sign just 13 miles up the river.
    Now, the National Park Service has opted to abandon the 
road upriver from that point, less than two miles into the park 
and the Stephen Mather Wilderness. Without that road, this 
doorway to heaven is already experiencing a dramatic drop in 
visitors using local transportation and the few struggling 
businesses that have found a home here. The firefighting crews 
have also lost access to fight the catastrophic wildfire they 
fear will be given birth within the park and roar into their 
world as a full-grown monster.
    Maintaining the way through requires only common sense. 
Parallel to the washed-out section runs the road's original 
route, safely up slope from the river. Called the ``old wagon 
road,'' it became part of the Pacific Crest Trail when the 
Civilian Conservation Corps replaced it with the road along the 
river.
    The solution if obvious: For those two and a half miles, 
simply reroute the main corridor to the old wagon trail and 
trade the Pacific Crest Trail back to the river, where a trail 
would be far easier to maintain.
    Mr. Chairman, what is the National Park's response to our 
plea? It is a flat-out no. The Stehekin Valley Road is bounded 
on both sides by the Mather Wilderness that, according to the 
National Park, cannot, and will not, be moved.
    Again, the answer is simple: Change the law. There would be 
no net loss of wilderness, the Pacific Crest Trail users get a 
more beautiful route, and the 100-year-old, one-lane, 
primitive, summer-only road that starts and stops in Stehekin 
would be open. It is just common sense.
    Most environmental experts agree that the old wagon trail 
is where the corridor should have been in the first place. It 
has been said that, throughout the world, there may be no place 
else quite like Stehekin, but who will know? As one resident 
puts it, ``It is like going to Disneyland and only getting to 
ride the cup and saucer.''
    Representative Hastings's bill reflects the common-sense 
desire of the people of Washington State. It provides for 
replacement of the washed-out road and nothing more. It does 
not take away from the wilderness experience; it only enhances 
it.
    Mr. Chairman, as you listen to environmental groups asking 
you to oppose this bill because replacing the Stehekin Road 
``breaks precedent,'' ask yourself whether opposition to 
common-sense solutions is not denying the next generation of 
our children the same blessings that we enjoyed? They, too, 
will be asked to defend the wilderness that today's 
environmental groups claim to love, but if they never 
experience that same wilderness, how can they be expected to 
defend it?
    It should be noted that this wilderness was named after the 
first director of the National Park Service, who, and I quote, 
``encouraged visitation to normally remote units of the system 
to thereby create a base of public support with those who had 
seen and gained a personal appreciation for them.'' It has been 
proposed that this wilderness be enlarged. How can your 
Committee ask for our support after this insult to Stehekin?
    Mr. Chairman, as the people of my county ask for this 
legislation to be passed, please remember the goodwill that 
such an obvious, common-sense solution will provide to future 
wilderness defenders. Thank you and thank you again, 
Congressman Hastings and Members of the Subcommittee, for your 
willingness to listen to our please for reason.
    [The prepared statement of Mr. England follows:]

   Statement of Doug England, Chelan County, Washington, on H.R. 2806

    Mr. Chairman and members of the Subcommittee, my name is Doug 
England, Chelan County, Washington Commissioner. Thank you for making 
this hearing possible and to Congressman Hastings for introducing 
important legislation for the people of our county. By way of 
background, Chelan County is nearly 3,000 sq. miles in size and 
includes 126,140 acres of National Park, 1,284,374 million acres of 
National Forest, and 20,891 acres of BLM lands. Fully 80% of our county 
is owned and controlled by the federal government. After adding other 
State and other Public Lands, only 13% of our land is privately owned. 
Economically, Chelan County is largely dependent on agriculture and 
tourism, providing the nation and world with over $2.6 Billion worth of 
apples, pears, cherries and other tree fruit annually. With a 
population of just over 70,000, the county's residents share vacation 
destinations with a dramatic influx of our state's residents who live 
west of the Cascade Mountains, joined by visitors from all over the 
world to experience its unique culture and see its beauty. 
Historically, one of the most special places of all is the Stehekin 
Valley, in the North Cascades National Park.
    Since it became known that this committee would hold this hearing, 
I have received a surge of calls reflecting frustration about a ``deaf-
ear'' to local resident's pleas for action. Thank you, Congressman 
Hastings, for listening. The comments my county and I hear are all 
strikingly similar; ``...please restore my memories of the Upper 
Stehekin Valley, and please allow my children and those not blessed 
with the time or ability, to share my experience of this beautiful 
valley...''
    Let me draw heavily upon an editorial from the Yakima Herald 
Republic, written by Scott Sandberry, to tell their story. It tells of 
a huge photograph of Horseshoe Basin, a breath taking amphitheater of 
North Cascade peaks, that hung for years in Stehekin. Visitors marveled 
at the picture then would ask for directions to see for themselves the 
area once described in a 1960 Sierra Club documentary film as ``a crown 
jewel of America's scenic grandeur.''
    They don't ask that now. The photograph has been taken down. Locals 
got tired of having to tell visitors that, unless they were willing to 
don a backpack for a 30 mile round trip, they could no longer get to 
Horseshoe Basin. Or, for that matter, to a myriad of other back country 
destinations, that Stehekin, itself--accessible only by plane, foot or 
a 51 mile boat ride--had long been a portal.
    In the language of the native Indians, Stehekin meant ``the way 
through.'' But in October 2003, a 500-year flood washed out the 
Stehekin Valley Road, which a century earlier had gone nearly to 
Horseshoe Basin, dead-ending to quote that 1960 film, ``in paradise.'' 
Now it ends at a rather non-descript stop sign just 13 miles up river 
at Car Wash Falls.
    Now the National Park Service has opted to abandon the road up 
river from that point, less than 2 miles into the Park and the Steven 
Mather Wilderness. Without that road, this doorway to heaven is already 
experiencing a dramatic drop in visitors using local transportation and 
the few struggling businesses that have found a home here. The 
firefighting crews have also lost access to fight the catastrophic 
wildfire they fear will be given birth within the park and roar into 
their world as a full grown monster.
    Maintaining ``the way through'' requires only common sense. 
Parallel to the washed out sections, runs the road's original route, 
safely upslope from the river. Called the ``old wagon road'', it became 
part of the Pacific Crest Trail when the Civilian Conservation Corp 
crews replaced it with the road along the river.
    The solution is obvious. For those 2 1/2 miles, simply reroute the 
main corridor to the ``old wagon trail'' and trade the Pacific Crest 
Trail back to the river, where a trail would be far easier to maintain.
    Mr. Chairman, What is the National Park's response to our plea? It 
is a flat out--``No.'' The Stehekin Valley Road, essentially a 100 foot 
right of way, is bounded on both sides by the Mather Wilderness, that, 
according to the National Park, cannot be moved.
    Again, the answer is simple--change the law. There would be no net 
loss of Wilderness, the Pacific Crest Trail users get a more beautiful 
route; and the one-lane, primitive, summer road is open. It's just 
common sense. Other National Parks have similar issues and were formed 
with far less restrictive language. Most environmental protection 
experts agree that the ``old wagon trail'' was where the corridor 
should have been in the first place.
    As one 83-year-old gentleman put it, ``the old road encouraged and 
enabled visiting and hiking, even by people limited by time or without 
well-honed physical abilities. It permitted one day access even by the 
elderly and families. Being there has touched my soul deeply. I yearn 
for the day when I can access it again.''
    It has been said that throughout the world there may be no place 
else quite like Stehekin, but who will know? As one resident put it, 
``It's like going to Disneyland and only getting to ride the cup and 
saucer.'' Stehekin deserves better than that.''
    Representative Hastings' bill reflects the common sense desires of 
the people of Washington State. It provides for replacement of the 
washed-out road and nothing more. It does not take away from the 
Wilderness experience, it enhances it for thousands who otherwise will 
never see these lands.
    Mr. Chairman, as you listen to environmental groups asking you to 
oppose this bill because replacing the Stehekin road ``breaks 
precedent'', ask yourself whether bull-headed opposition to common 
sense solutions isn't denying the next generation of our children and 
grand children the same blessings we enjoyed. They too will be asked to 
defend the Wilderness and wilderness values that today's environmental 
groups claim to love. But if they never experience that same 
wilderness, how can they be expected to defend it.
    It should be noted that this wilderness was named after the first 
Director of the National Park Service, who, and I quote, ``encouraged 
visitation to normally remote units of the system and thereby create a 
base of public support...with those who had seen...and gained a 
personal appreciation for them.'' It has been proposed that this 
wilderness be enlarged. How can your committee ask for our support 
after this insult to Stehekin?
    Mr. Chairman, as the people of my county ask for this legislation 
to be passed, please remember the good-will that such an obvious common 
sense solution will provide to future would-be wilderness defenders.
    Thank you and thank you again Congressman Hastings and members of 
the Subcommittee for your willingness to listen to our plea for reason.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Commissioner.
    Martin Saffer, President, Pocahontas County Commission, on 
H.R. 3113. Mr. Commissioner?

  STATEMENT OF MARTIN V. SAFFER, PRESIDENT, POCAHONTAS COUNTY 
              COMMISSION, MARLINTON, WEST VIRGINIA

    Mr. Saffer. Thank you, Chairman Grijalva and Members of the 
Subcommittee, for this opportunity to testify in support of 
H.R. 3113, a bill to study a portion of the Elk River in 
Pocahontas County, West Virginia, for potential inclusion in 
the National Wild and Scenic Rivers System.
    At the outset, I want to recognize the important leadership 
of Congressman Rahall in sponsoring this and many other 
environmental measures which will have lasting value, enriching 
and protecting the quality of American life and that of West 
Virginians for decades to come.
    As president of the Pocahontas County Commission, I am in a 
unique position to speak to the importance of this legislation. 
Our beautiful, rural county has been discovered and, as other 
parts of this great United States, we are at a crossroads of 
decision in arriving at a balanced use of our natural resources 
which will best serve us into the future.
    My first observation to you is that this portion of the Elk 
River, having its birth in our yet-pristine county, is truly a 
unique environmental resource. Its waters are cold and pure. It 
is a trout fisherman's dream. Its banks are free of 
development, and its waters lap a shoreline where beaver and 
wilderness yet thrive. The Elk is an important part of our 
beautiful landscape which draws many visitors and tourists who 
walk in rich forests and wilderness and canoe and fish 
unsullied streams and rivers.
    Our county has developed a strong tourist industry which 
weaves together many unparalleled elements unique to Pocahontas 
County. The Cranberry Wilderness, together with recent 
additions of Spice Run Wilderness, the Greenbrier River, 
spectacular and tranquil state parks and forests, rolling 
farms, serve as a panoramic backdrop to the National Radio 
Astronomy Observatory, the Cass Railroad, and the Snowshoe Ski 
Resort. This wealth of resources promises us a healthy and 
growing economy into the future. However, the one caveat I see 
is that, as a county, we must be true stewards to this abundant 
gift.
    This leading legislation by Chairman Rahall recognizes the 
importance of stewardship of unique natural resources to ensure 
a prosperous future. Frank Jezioro, the director of the West 
Virginia Department of Natural Resources, has expressed his 
support of a detailed study of the Upper Elk River. He hopes 
that such a study will answer often-raised questions and 
concerns about how any change in designation would impact 
present landowners and the use of their land, as well as the 
State of West Virginia, to manage, control, and regulate fish 
and wildlife.
    As Mr. Jezioro rightly pointed out to me in our recent 
conversation concerning this bill, ``There is no way to put a 
value on good, clean water,'' which, as he further stated, ``is 
a resource central to sustain life.''
    I believe that, as time goes on and as our world and 
country and state become more crowded and congested, water will 
become more valuable than oil.
    Additionally, I want to express the support of the 
Pocahontas County Convention and Visitors Bureau for this 
legislation. Our county has over one million visitors a year, 
an extraordinary economic stream for a county of just 9,000 
residents. Tourism is a lasting and powerful economic engine, 
and unique resources like the Elk River must not be taken for 
granted. Our CVB president, Abbey Withrow, has said in a letter 
of support to this legislation, ``With most of our attractions 
being natural resources, it is imperative that we work to 
protect them.'' The CVB sees this study as a ``step toward 
protecting what is so important in our area.''
    The simple truth in life is that one cannot have his cake 
and eat it too. There are choices to be made, and the best 
choices result from careful study of the facts before action is 
taken. On behalf of Pocahontas County Commission, I urge this 
Committee to confirm this wise legislative initiative of 
Chairman Rahall and hope that the U.S. Congress enacts this 
legislation which will begin the needed study of this unique 
national and state resource.
    For a healthy and strong America, there are certain basic 
elements which must be preserved into the future. No 
civilization can withstand the destruction of its forests or 
pollution of its rivers and still survive intact. The Elk River 
is a small but significant link in a chain of strength of 
America. I urge this study of the Elk River, and I thank you 
for allowing me to be here today, Mr. Chairman.
    [The prepared statement of Mr. Saffer follows:]

               Statement of Martin V. Saffer, President, 
               Pocahontas County Commission, on H.R. 3113

    Thank you, Chairman Grijalva and Members of the Subcommittee, for 
this opportunity to testify in support of H.R. 3113, a Bill to study a 
portion of the Elk River in Pocahontas County, West Virginia for 
potential inclusion in the National Wild and Scenic Rivers System.
    At the outset, I want to recognize the important leadership of 
Congressman Rahall in sponsoring this and many other environmental 
measures which will have lasting value enriching and protecting the 
quality of American life and that of West Virginians for decades to 
come.
    As President of the Pocahontas County Commission, I am in a unique 
position to speak to the importance of this legislation. Our beautiful 
rural County has been discovered and we are at a cross roads of 
decision, as other parts of this great United States also find 
themselves, in arriving at a balanced use of our natural resources 
which will best serve us into the future.
    My first observation to you is that this portion of the Elk River, 
having its birth in our yet pristine County, is truly a unique 
environmental resource. Its waters are cold and pure and it is a trout-
fisherman's dream. Its banks are free of development and its waters lap 
a shoreline where beaver and wildlife yet thrive. The Elk is an 
important part of our beautiful landscape which draws many visitors and 
tourists who walk in rich forests and wilderness, and canoe and fish 
unsullied streams and rivers.
    Our County has developed a strong tourist industry which weaves 
together many unparalleled elements unique to our County. The Cranberry 
Wilderness together with the recent addition of Spice Run Wilderness, 
the Greenbrier River, spectacular and tranquil State Parks and forests, 
rolling farms, serve as panoramic backdrops to the National Radio 
Astronomy Observatory, the Cass Railroad, and Snowshoe Ski Resort. This 
wealth of resources promises us a healthy and growing economy into the 
future. However, the one caveat I see is that as a County we must be 
true stewards to these abundant gifts.
    This leading legislation by Chairman Rahall recognizes the 
importance of stewardship of unique natural resources to insure a 
prosperous future. Frank Jezioro, the Director of the West Virginia 
Department of Natural Resources, has expressed his support of a 
detailed study of the Upper Elk River. He hopes that such a study will 
answer often raised questions and concerns about how any change in 
designation would impact present landowners and use of their land as 
well as the role of the State of West Virginia to manage, control and 
regulate fish and wildlife. As Mr. Jezioro rightly pointed out to me in 
our recent conversation concerning this bill, ``There is no way to put 
a value on good clean water'' which, as he further stated ``is a 
resource central to sustain life''. I believe that as time goes on and 
as our world and country and state becomes more crowded and congested, 
water will be more valuable that oil.
    Additionally, I want to express the support of the Pocahontas 
County Convention and Visitors Bureau for this legislation. Our County 
has over one million visitors a year; an extraordinary economic stream 
for a county of just 9,000 residents. Tourism is a lasting and powerful 
economic engine and unique resources like the Elk River must not be 
taken for granted. Our CVB President, Abbey Withrow, has said in a 
letter of support of this legislation: ``With most of our attractions 
being natural resources it is imperative that we work to protect 
them.'' The CVB sees this study as ``step towards protecting what is so 
important in our area.''
    The simple truth in life is that one cannot have his cake and eat 
it too. There are choices to be made and the best choices result from 
careful study of the facts before action is taken. On behalf of the 
Pocahontas County Commission, I urge this Committee to confirm this 
wise legislative initiative of Chairman Rahall and hope that the United 
States Congress enacts this legislation which will begin the needed 
study of this unique national and state resource.
    For a healthy and strong America, there are certain basic elements 
which must be preserved into the future. No civilization can withstand 
the destruction of its forests or pollution of its rivers and survive 
intact. The Elk River is a small but significant link in a chain of 
strength for America. I urge this study of the Elk. Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you, Commissioner.
    Mr. Thomas Shipley, the Sharp Farm. Sir?

STATEMENT OF THOMAS S. SHIPLEY, THE SHARP FARM, SLATYFORK, WEST 
                            VIRGINIA

    Mr. Shipley. Yes, thank you. Mr. Chairman and Members of 
the Subcommittee, thank you for the opportunity to share with 
you the deep-rooted connection of our family with the Upper Elk 
River. Her waters played a significant role in shaping our 
pioneer past. They sustain us still in this present day and are 
the foundation of our hopes and dreams for the future.
    I am here to represent the descendants of the 1700's 
pioneer settler, William Sharp. I am the eighth generation to 
reside in Pocahontas County. My forefathers owned much of the 
land on and around the proposed study area. Our holdings, over 
time, have been reduced to somewhere around 1,800 acres, all in 
the proximity of the Upper Elk River.
    Our early log home was constructed along the bank at the 
river's birth. The confluence of the spring-fed rapids of Old 
Field Fork and Big Spring Fork forms a dramatic gateway that is 
well described as ``a gift from God.''
    A later log home was situated upstream near one of West 
Virginia's largest cold-water springs. This 1800's structure 
still stands. It was the host to Robert E. Lee on two occasions 
during the Civil War. His first campaign as general of the 
Confederate Army was through our valley.
    My great, great-grandfather, Silas Sharp, was arrested in 
this home as a spy by the Confederate Army. His little brother, 
Luther, was killed in that skirmish. Silas spent two years in a 
prison camp in Salisbury, North Carolina. A prisoner exchange 
freed him. He walked home and appeared at the doorstep of his 
fiancee, who did not recognize him.
    Silas recovered, married, and had a family. His son, my 
great-grandfather, L.D. Sharp, established Sharp's Country 
Store in 1884. I own and operate the store today, a 125-year 
example of living history.
    The introduction of timbering in the early 1900's resulted 
in the establishment of a small village, Slatyfork. The village 
is mostly gone, but many folks still reside nearby and tell 
intriguing stories of life on the river. Timbering remains a 
tradition.
    In 1926, the old Seneca Indian Trail was paved, and the 
Seneca Highway brought many new people to the area. My great-
grandfather found that folks traveling had no place to stay. He 
constructed numerous tourist cabins along the river. We have 
family letters from the early 1900's documenting the fact that, 
even in that day, folks were out touring the countryside in 
appreciation of the natural beauty in those newfangled 
contraptions called ``automobiles.''
    Eco-tourism remains a strong and growing factor in the 
Upper Elk River watershed. A well-kept secret, the Upper Elk is 
known worldwide by a select group of anglers. From as far away 
as Scotland, they make an annual pilgrimage to fish her waters. 
The Upper Elk carries the unfortunate, but crucially important, 
designation as one of the last places on the East Coast with 
all three naturally reproducing [nonstocked] species of trout; 
native brook, our state fish; rainbow, and brown.
    The unique karst geology of fissured limestone acts as a 
stage for a remarkable, dynamic system of springs and caves 
that play an important role in the enjoyment of anglers, 
spelunkers, and naturalists from all over the world. Our 
pioneer family discovered many of these wonders, including 
Sharp's Cave, a four-mile, two-story spectacle that hosts the 
underground passage of the Big Spring Fork, including a 
magnificent, underground waterfall.
    Many of these natural gifts remain largely unexplored; in 
the proposed study area, for example, an extraordinary cascade 
of water from the surface of the Upper Elk River falling into 
an abyss. This cave, which pirates away a portion of the above-
ground flow, is as dangerous as it is beautiful; thus, 
unexplored as to its configuration and contribution to the 
natural world.
    A ``new'' species of crayfish was discovered on our farm. 
It is one of only two crayfish known to be endemic to West 
Virginia. It is not a burrower. It seeks shelter and breeds in 
between the river rock. The Cambarus elkensis depends upon the 
free flow of clean, cold water for its existence.
    The river is largely now as it was. We thank Representative 
Rahall for the introduction of this important legislation, as 
it represents the will of the people of Pocahontas County to 
preserve the river and the historic uses of her immediate 
surroundings. Doing so will ensure its viability for the 
benefit and enjoyment of present and future generations.
    We offer our support and look forward to participating in 
the creation of an Upper Elk River Management Plan that will 
allow us to see designation of the Upper Elk River as ``wild 
and scenic'' through to fruition. Thank you.
    [The prepared statement of Mr. Shipley follows:]

              Statement of Thomas A. Shipley, Sharp Farm, 
                 Slatyfork, West Virginia, on H.R. 3113

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to share with you the deep-rooted connection of our family 
with the Upper Elk River. Her waters played a significant role in 
shaping our pioneer past. They sustain us still in this present day and 
are the foundation of our hopes and dreams for the future.
    I am here to represent the descendents of the 1700's pioneer 
settler, William Sharp. I am the eighth generation to reside in 
Pocahontas County. My forefathers owned much of the land on and around 
the proposed area of study. Our holdings, over time, have been reduced 
to somewhere around 1800 acres--all in the proximity of the Upper Elk 
River.
    Our early log home was constructed along the bank at the river's 
birth. The confluence of the spring fed rapids of Old Field Fork and 
Big Spring Fork forms a dramatic gateway that is well described as a 
gift from God.
    A later log home was situated, upstream, near one of West 
Virginia's largest cold-water springs. This 1800's structure still 
stands. It was the host to Robert E. Lee on two occasions during the 
Civil War. His first campaign as general of the Confederate Army was 
through our valley. My great, great grandfather, Silas Sharp, was 
arrested in this home, as a spy, by the Confederate Army. His little 
brother, Luther, was killed in that skirmish. Silas spent 2 years in a 
prison camp in Salisbury, North Carolina. A prisoner exchange freed 
him. He walked home and appeared at the doorstep of his fiance, who did 
not recognize him.
    Silas recovered, married and had a family. His son, (my great 
grandfather) L.D. Sharp, established Sharp's Country Store in 1884. I 
own and operate this store today, a 125-year example of Living History.
    The introduction of timbering in the early 1900's resulted in the 
establishment of a small village, Slatyfork. The village is mostly 
gone, but many folk still reside nearby and tell intriguing stories of 
life on the river. Timbering remains a tradition.
    In 1926, the old Seneca Indian trail was paved and the Seneca 
Highway brought many new people to the area. My great grandfather found 
that folks traveling had no place to stay. He constructed numerous 
tourist cabins along the river. We have family letters from the early 
1900's documenting the fact that, even in that day, folks were out 
touring the countryside in appreciation of the natural beauty in those 
newfangled contraptions called automobiles.
    Eco-tourism remains a strong and growing factor in the Upper Elk 
River watershed. A well-kept secret, the Upper Elk is known worldwide 
by a select group of anglers. From as far away as Scotland they make an 
annual pilgrimage to fish her waters. The Upper Elk carries the 
unfortunate, but crucially important designation as one of the last 
places on the East Coast with all three naturally reproducing (non-
stocked) species of trout; Native Brook (our state fish), Rainbow and 
Brown.
    The unique karst geology (fissured limestone) acts as a stage for a 
remarkable, dynamic system of springs and caves that play an important 
role in the enjoyment of anglers, spelunkers and naturalists from 
around the world. Our pioneer family discovered many of these wonders, 
including Sharp's Cave--a four mile, two-story spectacle that hosts the 
underground passage of Big Spring Fork, including a magnificent 
underground waterfall. Many of these natural gifts remain largely 
unexplored. In the proposed study area, for example, an extraordinary 
cascade of water from the surface of the Upper Elk River falling into 
an abyss. This cave, which pirates away a portion of the aboveground 
flow, is as dangerous as it is beautiful; thus, unexplored as to its 
configuration and contribution to the natural world.
    A ``new'' species of crayfish was discovered on our farm. It is one 
of only two crayfish known to be endemic to West Virginia. It is not a 
burrower. It seeks shelter and breeds in-between the river rock. The 
Cambarus Elkensis depends upon the free flow of clean, cold water for 
its existence.
    The river is largely, now, as it was. We thank Representative 
Rahall for the introduction of this important legislation as it 
represents the will of the people of Pocahontas County to preserve the 
river and the historic uses of her immediate surroundings. Doing so 
will ensure its viability for the benefit and enjoyment of present and 
future generations.
    We offer our support and look forward to participating in the 
creation of an Upper Elk River Management Plan that will allow us to 
see designation of the Upper Elk River as ``Wild & Scenic'' through to 
fruition.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    Mr. Gil Willis, H.R. 3113, welcome, sir. Your comments?

       STATEMENT OF GIL WILLIS, SLATYFORK, WEST VIRGINIA

    Mr. Willis. Thank you. Good morning. My name is Gil Willis, 
and I am a business owner in Pocahontas County, West Virginia. 
I would like to thank Congressman Rahall and the Subcommittee 
Members for considering this study and providing the time to 
hear our comments.
    My wife and I have been in business in rural West Virginia 
for 29 years. We currently provide 15 full- and part-time jobs 
related to the outdoor-hospitality industry. In the winter, 
this number doubles. This business is located on a 150-acre 
family farm on the headwaters of the Elk River in Slatyfork. My 
home and business is directly above the proposed study area. 
Several of the springs that feed the upper section of the river 
resurface in our yard and flow into the proposed study area.
    I am here to express my support for the wild and scenic 
study on the five miles of the upper section of the Elk River, 
commonly referred to in today's hearing as the ``Slatyfork 
section of the Elk.''
    The Elk River is over 75 miles in length. It begins in our 
remote mountain valley, then flows eventually into the Kanawha 
River in Charleston, our state capital. Many small towns, 
farms, and individual property owners rely on its clean water 
for everyday use, not to mention the thousands of recreation 
users who fish, hunt, camp, swim, hike, and float in the river 
and along its banks.
    This is only one of eight rivers which begins in Pocahontas 
County, West Virginia. This region receives large amounts of 
rain and snow which provides a large amount of pure drinking 
water for this section of the Mid-Atlantic Region. Our upper 
headwaters begin in thick, red spruce forests, reaching almost 
5,000 feet. These waters then start a journey that takes them 
into some of the most prized hardwood forests, home to hard 
cherry, red oak, sugar maple, and many other species.
    As the waters get closer to the valley floor, they become 
small feeder streams which still provide a safe haven for 
native brook trout. The valley floor is limestone. Over the 
last several thousand years, it has carved large caves which 
the river and its springs use to travel the upper reaches of 
the watershed. This process, over time, has graced us with some 
of the cleanest drinking water in the eastern U.S.
    I like to think of this whole headwaters as a huge system, 
both underground and on the surface. This system is connected 
by surface water runoff and our unique underground springs and 
caves. The water levels ebb and flow, depending on rainfall 
amounts, snow, and the time of year.
    Pocahontas County is over 65 percent Federal and state 
owned and managed. These state and Federal lands include 
wilderness, national forests, and state parks. Hopefully, a 
wild and scenic study then designation in the future will 
provide long-term, high-quality, outdoor experiences for our 
state and county residents. It will also keep West Virginia 
competitive with other outstanding natural areas in the country 
while preserving our valuable resources. Thank you.
    [The prepared statement of Mr. Willis follows:]

  Statement of Gil Willis, Elk River Touring Center, Slatyfork, West 
                                Virginia

    Good Morning my name is Gil Willis I'm a business owner in 
Pocahontas County West Virginia. I would like to thank Congressman 
Rahall & the sub committee members for considering this study and 
providing the time to hear our comments. My wife and I have been in 
business 29 years. We currently provide 15 full and part time jobs 
related to the outdoor hospitality industry. In the winter this number 
doubles. This business is located on a 150 acre family farm on the 
headwaters of the Elk River in Slatyfork. My home and business is 
directly above the proposed study area. Several of the springs that 
feed the upper section of the river resurface in our yard and flow into 
the proposed study area. I am here to express my support for the a wild 
& scenic study on 5 miles of the upper section of the Elk River 
commonly referred to in today's hearing as the Slatyfork section of the 
Elk.
    The Elk River is over 75 miles in length. It begins in our remote 
mountain valley then flows eventually into the Kanawha River in 
Charleston our state capital. Many small towns, farms and individual 
property owners rely on it clean water for everyday use. Not to mention 
the thousands of recreation users who fish, hunt, camp, swim, hike and 
float in the river and along its banks. This is only one of eight 
rivers which begins in Pocahontas County West Virginia. This region 
receives large amounts of rain and snow which provides a large amount 
of pure drinking water for this section of the mid Atlantic region. Our 
upper headwaters begin in thick red spruce forests reaching almost 
5000ft. These waters then start a journey that takes them into some of 
the most prized hardwood forests home to hard cherry, red oak, sugar 
maple and many more species. As these waters get closer to the valley 
floor they become small feeder streams which still provide a safe haven 
for native brook trout. The valley floor is limestone. Over the last 
several thousand years it has carved large caves which the river and 
its spring use to travel the upper reaches of the watershed. This 
process over time has graced us with some of the cleanest drinking 
water in the eastern US.
    I like to think of this whole headwaters area as a huge system both 
underground and on the surface. This system is connected by surface 
water runoff and our unique underground springs and caves. The water 
levels ebb and flows depending on rainfall amounts, snow and the time 
of year.
    Pocahontas County is over 65 percent federal and state managed. 
These state and federal lands include Wilderness, National Forest and 
State parks. Hopefully a Wild & Scenic study then designation in the 
future will provide long term high quality outdoor experiences for our 
state and county residents. It will also keep West Virginia competitive 
with other outstanding natural areas in the country while preserving 
our valuable resources.
    Thank You,
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    It is a curious situation. Here, you have Mr. Hastings, the 
Ranking Member of the full Committee, and he has H.R. 2806, and 
then, of course, the Chairman of the full Committee, Mr. 
Rahall, has H.R. 3113, and if there is anything you learn in 
Congress, it is discretion being the better part of sometimes, 
so let me ask Mr. Adams some questions, if I may.
    The National Park Service said that there had not been 
enough progress going on with the foundation and, therefore, 
your request for seven; they wanted to modify that to four. 
Your reaction to that.
    Mr. Adams. Sure. I think a couple of things first. We are 
an entirely volunteer organization, started several years ago. 
We had our original cooperative agreement signed by the 
National Park Service in 2004, in April of 2004, which really 
began our efforts as part of this process, and we subsequently 
went through a lot of building out of board, looking at 
different sites, hiring outside consultants, lawyers, urban 
planners, et cetera. So we actually feel we have made 
reasonably good progress.
    In fact, we are now in the process of beginning our formal, 
alternate-site study and our environmental assessment, which 
will basically put us in a position to have a site in the 18-
to-24-months timeframe, which is functionally equivalent to 
where other memorial projects have been in recent years. That 
is Point No. 1.
    Point No. 2: I think, as we look forward from here, it will 
probably take us seven years to get it done. As I said before, 
it will be 18 to 24 months to run through some of the site 
studies, get a site, a couple of years for a capital campaign, 
and then construction on the back end as well.
    So I think that the number seven we have put out there is 
because we think we can get it done in that period of time. 
Certainly, a four-year process, we can get a good start, but, 
frankly, we would probably come back to you looking for 
additional legislation, at that point, to extend us out to 
seven.
    Mr. Grijalva. And significant challenges that you might 
have faced during this effort that, in the legislation, 
Congress could address some of those challenges in order to 
make sure we are heading toward that so we can see it through 
to completion because I agree with your comments that this is 
something very significant that needs to be acknowledged 
nationally. So if there are other challenges that you see that 
the legislation could help expedite, if you have any comments 
now or later.
    Mr. Adams. Well, thank you very much, first of all. I think 
we are in a good position right now with the processes that we 
are on, as I mentioned before, the alternate site study and the 
environmental assessment. That will carry us through for the 
next 24 months, but we will go back and reflect upon that, and 
if there are other things that we think are worthwhile to be 
incorporated into the legislation, other comments, we will make 
sure to work with the Committee and get them to you.
    Mr. Grijalva. Mr. Hastings? Mr. Chairman. Excuse me, sir.
    Mr. Rahall. Thank you. Let me thank the three gentlemen 
that came from Pocahontas County, Marty, Tom and Gil. You did a 
superb job, and I think you helped demonstrate what I said in 
the beginning, that this legislation came from the grassroots 
because your testimony today was, each of you, just superb. It 
was written by you, not by my staff, the words and the 
descriptions.
    Tom, I have shared with the Committee your pictorial about 
everything you said in your testimony and, Gil, before you came 
in, while you were out fighting the traffic on I-66, I 
discussed your place of business, your menu, and everybody is 
just holding their breath until they can get there.
    Mr. Shipley. Thank you.
    Mr. Grijalva. It is great testimony that you all presented.
    As you mentioned, Gil and all of you know, and certainly, 
Marty, you, as a county commissioner in a county of which 65 
percent of the land is Federally and state owned, which is 
similar to many western states, of course, as we have heard and 
as we know, what is your view of the local residents' position 
on this? Do they view this land-ownership situation as a 
benefit or as a liability?
    Mr. Saffer. I think, Congressman Rahall, that many of the 
county residents view it as a benefit. There is just a residue 
from times past that perhaps they see it was something that 
they do not like, but I would say with great confidence that 
the majority of people in Pocahontas County are thankful that 
we have such a vast reserve of asset in our county to sustain 
us into the future because tourism has become the guiding 
industry of tomorrow for us, and it will last indefinitely if 
we are good stewards of it, and if we all work together to 
understand its value.
    It has not been the case in the past. In the past, we had 
lumbering and that kind of thing, and farming, of course, we 
still have farming and timber, but now we have tourism, and 
that gets us to look afresh and anew at the wonderful forests 
that we have and to place a renewed value and emphasis on that 
great asset.
    Mr. Rahall. So they are following what you have so 
professionally led them to believe, that you can have the 
economic development, and you can preserve our natural 
resources, and they are both intertwined.
    Mr. Saffer. Yes. I believe that the county is, because of 
my election, an indication of the new perspective that people 
are taking to this valuable industry. It is not only a valuable 
industry, Congressman, but it is also a refreshing oasis for 
the rest of the United States to come and understand our 
connection to the natural world and to renew our spirit and to 
renew the vigor of America to go forward into the future. So it 
is that as well as an economic engine.
    Mr. Grijalva. Tom or Gil, do either of you wish to comment?
    Mr. Shipley. I would just reiterate Commissioner Saffer's 
remarks. The statement that he made that he represents the new 
will of the people is absolutely correct. The people of our 
county are very aware of the Elk River, and they have joined 
with many to become involved with the Upper Elk watershed, and 
our community is forming a comprehensive watershed plan because 
of certain instances that occurred in the last few years in our 
county, and there has been just a swell of support for this 
river, not just from some new people coming into the county who 
come because of our natural beauty, but from the old-timers who 
knew my great-grandfather because they cared about this river 
before there was even a word coined called ``tourism.''
    The people understand. They have an innate knowledge of 
this river, and the support of our community is quite 
overwhelming.
    Mr. Grijalva. Thank you. Gil?
    Mr. Willis. I would like to add to that as time progresses, 
we, as a county, are in a very unique situation there because 
we are so largely managed and owned by Federal and state 
forests, wilderness, parks. There are eight rivers that start 
in Pocahontas County, so this one has a lot of limestone and 
fluent springs, and a lot of this water goes underground, and 
we really do not know where it ends up.
    So we think that we are providing a percentage of the clean 
water for the Mid-Atlantic. Most of our rivers flow to the 
west, which is toward the western part of West Virginia and on 
into Ohio, Kentucky, and points further downstream.
    You know, 100 years ago, you did not think of yourself as, 
or even 50 years ago, what you did in a headwaters county 
affecting somebody that lives 30 or 50 or 100 miles downstream. 
So I feel like because there are so many more people now and 
West Virginia has grown up, and there is a lot of industry 
there, we need to watch what we do for our neighbors downstream 
because we are kind of in the nest of where all of this water 
begins. So I think this study will help us understand better 
what we have to work with on the Elk because the water quality 
is very high there.
    Mr. Rahall. Excellent. Thank you, gentlemen. Thank you, Mr. 
Chairman.
    Mr. Grijalva. Thank you. Mr. Hastings?
    Mr. Hastings. Thank you, Mr. Chairman. That last discussion 
on tourism in West Virginia was a good segue, I think, into 
asking my constituents how important, because it was alluded to 
several times by me and by Mrs. Napolitano from California, how 
important to both of you is tourism to the economy in Chelan 
County and probably, specifically, today, to Stehekin? I will 
ask either Commissioner England or Senator Parlette or both.
    Mr. England. Tourism is the only economy in Stehekin. It is 
a small community. It is the gateway to the National Park 
System. Without access to that road, they have no economy. 
There has been a dramatic drop in visitors, both using the 
amenities that are there and the amenities that were there 
before that happened.
    Chelan County itself is undergoing the same stresses that 
the rest of the Nation is undergoing. It is part of a three-
legged stool, and tourism is one of the most important ones and 
the only one that is holding its own now and, as we struggle to 
do that, if we do things that inhibit that source of income, it 
will have an even more critical effect on the county itself.
    Mr. Hastings. Senator Parlette?
    Ms. Parlette. Yes. I would elaborate the same thing. The 
visitors who now go to Stehekin, perhaps if they stay in the 
area one night, and then they are backpackers and go out of the 
valley, that is a different type of a visitor than what we have 
had before. We have so little time these days to recreate. The 
advantage of having the road reopened is, in a weekend, you 
could go to Stehekin and then get up to the end of the road and 
access the wilderness, come back out, and get back home to work 
on Monday morning. That is a really important thing to 
remember.
    I would also like to clarify for people, the road that 
starts at Stehekin that goes up at High Bridge--that is about 
12 miles--that is the Lake Chelan National Recreational Area.
    The road that we are talking about, the remainder 12 miles, 
is into the North Cascades National Park. It is only a 12-mile 
road with just a small section of it being washed out.
    I would like to add, as far as the tourism part, as the 
commissioner said, that is the economic backbone, along with 
the agricultural base, that is really changing in Chelan 
County. So this is a really important piece of legislation.
    Mr. Hastings. If I may, Mr. Chairman, this is one of the 
ironies that come up. These are the unintended consequences of 
developing something to preserve for the future, which is 
exactly why the North Cascades were formed back in the sixties 
and the wilderness area in 1988, the late eighties, was for 
people to go up there and enjoy the public lands.
    So here we have a situation. These are the unintended 
consequences that I know you hear me talk about a lot of times. 
We want to have that, we want to preserve it for people to 
enjoy, on the one hand, which is positive. On the other hand, 
then, you have the same people that are administering the land 
saying, ``No, we cannot,'' for a reason that does not make 
sense because it is contrary to what the intent of Congress 
was, as pointed out in Senator Evans's letter.
    Let me pursue, Senator Parlette, what you were alluding to, 
as far as the timeframe here. Now, the issue really is getting 
up to other camps above, like Cottonwood camp above. How much 
longer, and you may have touched on this in your previous 
remarks, but how much longer is that, if we do not repair that 
road, and the consequences, from a time standpoint, of getting 
into the wilderness area?
    Ms. Parlette. Well, the road through the North Cascades 
National Park starts at High Bridge, so from High Bridge to 
Cottonwood is about 12 miles. If you go to Cottonwood, that is 
the access point for multiple, multiple trails into the 
wilderness, not into the Lake Chelan Recreational Area, but 
into the wilderness.
    My husband and I, several times, have hiked from Cottonwood 
up to the North Cascade Highway and back in one day. That is 18 
miles. You can do that, but you cannot start at High Bridge, 
hike 12 miles, and then do an additional 18 miles in one day.
    My parents, this year, will celebrate 65 years of marriage. 
They live in Lake Chelan. My father is an 86-year-old, World 
War II Marine. He still goes to Stehekin every summer with my 
sons to fish. He no longer can access the area that he grew up 
fishing in because of his age. I mean, it just does not make 
sense.
    Mr. Hastings. Well, again, the idea was to have access to 
the area which would promote tourism, but because of, at least 
in this case, testimony we are hearing from the Park Service, 
they do not want to do it, for a variety of reasons that, 
frankly, I do not comprehend.
    Let me ask one thing. You talk about the old road. This 
legislation does not specify which road, simply to do a study 
and to come up with a solution to have a permanent road up 
there. So I think you touched on this, Senator Parlette, but 
how long has that road, just to refresh my memory, been going 
through the Stehekin Valley?
    Ms. Parlette. Since the 19th century, way back in the 
1800's.
    Mr. Hastings. Let me think. That was before there was a 
National Park. Is that correct?
    Ms. Parlette. Yes. It became a National Park in 1968. The 
Wilderness Act passed in 1988. As I told you before, my 
grandfather, in 1899, came to Chelan, and his first job was 
working on the original ferry that went from Chelan to 
Stehekin. That road was there before my grandfather got there 
in 1899.
    As far as the work to be done, sir, if you read, on my 
written testimony, page 6, it talks about an alternative 
approach. The study has already been done. It is not very often 
that somebody comes to you, ``I am not asking for any money for 
a study. It has been done.''
    Alternative D, which is the option that proposes moving the 
road; it is all laid out. The Park Service hired the National 
Forest Service in Wenatchee to flag it. All of the work has 
been done, and the $1.3 million to get this all done is 2006 
figures. In this day and age, when we have a recession, we are 
finding our bids, when we go out to bid in state and county 
projects, turn out to be less.
    Mr. Hastings. Thank you very much, both of you, for coming 
back here and, again, for the courtesy of the Committee to 
allow that time period so we could get witnesses' talk.
    I just want to end my remarks by contrasting two different 
bills in two different parts of the country and the unintended 
consequences that come when you do not have that local control 
that you would like to have, and that is the issue really here 
with the Stehekin Road, so thank you very much, Mr. Chairman.
    Mr. Rahall [presiding]. Thank you, Mr. Hastings. You have 
made such a compelling case, as well as your constituents and 
my constituents. We will mark up both of these bills on 
September 10th. Is that agreeable with the Ranking Member?
    Mr. Hastings. Well, I would rather do it tomorrow, but 
September 10th will be fine.
    Mr. Rahall. The gentlelady from Wyoming.
    Mrs. Lummis. Thank you, Mr. Chairman. There is no way that 
a Member from Wyoming can do justice in her questions to the 
issues that the gentleman from West Virginia and the gentleman 
from Washington have with regard to their constituency, but I 
might ask the folks from West Virginia, are the private 
property owners aware, and the local residents aware, of the 
potential designation? What steps have been taken to inform 
them of the potential designation?
    Mr. Saffer. I will speak briefly to that. The local people 
who are in the area are very largely in favor of the study and, 
as a county commissioner, I welcome the concept of the study 
because, in our county, we need to have a dialogue and to build 
a strong consensus for the future of our county, and the study 
will enable us to speak to all of these issues.
    Some concerns, I believe, exist because people do not know 
enough, at this beginning point, exactly what the study will 
entail, and so, as we move forward in the process, if the 
Congress will enact this legislation, I believe it will be very 
helpful for us to frame the issues and to deal intelligently 
with this wonderful resource.
    Mrs. Lummis. Well, thank you kindly, and I would just hope 
that, during the course of your study, that you will consider 
taking some wild horses from Wyoming into your West Virginia 
watershed and, with that in mind, Mr. Chairman, I thank you 
kindly. I yield back.
    Mr. Rahall. Doc, did you have any more questions? No?
    Ladies and gentlemen, we thank you so much for taking the 
time and traveling the long distances you have to be with us 
and, again, we thank all of you for your testimony and the 
really deep insight you have given us into your respective 
areas. We appreciate it and, with that, the Subcommittee will 
stand adjourned.
    [Whereupon, at 11:28 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
